<html>
<title> - VICE PRESIDENT AL GORE'S PERSPECTIVE ON GLOBAL WARMING</title>
<body><pre>[Senate Hearing 110-1093]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1093
,
                 Vice President Al Gore's Perspective 
                           on Global Warming

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 21, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
55-923                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CRAIG THOMAS, Wyoming
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 21, 2007
                           OPENING STATEMENTS

Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     2
Mikulski, Hon. Barbara, U.S. Senator from the State of Maryland..     3
Boxer, Hon. Barbara, U.S. Senator from the State of California...     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     5
Baucus, Hon. Max, U.S. Senator from the State of Montana.........    54

                               WITNESSES

Gore, Hon. Al, Former Vice President of the United States and 
  Former Senator from the State of Tennessee.....................     8
    Prepared statement...........................................    15
    Responses to additional questions from Senator Inhofe........    16

                          ADDITIONAL MATERIAL

Articles:
    Offsetting Your Carbon Footprint Takes Decades, The Sunday 
      Times......................................................    21
    29 Million American Families Can't Afford to Pay Their 
      Heating Bills, AARP........................................    56
    An Interview With Accidental Movie Star Al Gore, Main Dish...    57
    A Call to Cool the Hype, The New York Times..................    58
Charts:
    An Inconvenient Truth, Long on Problems Short on Solutions...    61
    Daily Min Temperature........................................    62


                 VICE PRESIDENT AL GORE'S PERSPECTIVE 
                           ON GLOBAL WARMING

                              ----------                              


                       WEDNESDAY, MARCH 21, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m. in room 
106, Dirksen Senate Office Building, the Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Alexander, Baucus, Bond, Cardin, 
Carper, Clinton, Craig, Inhofe, Isakson, Klobuchar, Lautenberg, 
Lieberman, Mikulski, Sanders, Thomas, Warner, Whitehouse.
    Senator Boxer. The hearing will come to order. Welcome to 
this very special hearing today.
    I just wanted to lay out we are going to proceed. We are 
going to have two introductions of the Vice President from two 
people I think are very important to him. The first one will be 
a member of our Committee, Senator Alexander, who is going to 
welcome the Vice President, and then the second person is going 
to be one of the Senator's closest friends from the days that 
he was in the Senate, Senator Mikulski. We are very pleased 
that she has joined us here today.
    Senator Inhofe wants to talk about the rules. I think that 
we are going to do that now. Let me lay out how we are going to 
proceed. The way we are going to proceed is following these 
introductions, I am going to have an opening statement for 4 
minutes. Senator Inhofe is going to have an opening statement 
for 4 minutes. And then we are going to hear from the Vice 
President for up to 30 minutes.
    When he has concluded, there are going to be 12 minutes for 
Senator Inhofe and 12 minutes for myself to ask questions. At 
that point, we will call on Senators. In the case of the 
Democrats, we are going to recognize you in the order of 
arrival. In the case of the Republicans, they have asked that 
it be by seniority. So those are the rules. Does anyone have 
any objection to those rules or wish to change those rules?
    Senator Inhofe. Let me add to them, if I may, Madam 
Chairman.
    First of all, I want you to know, Mr. Vice President, you 
have a great friend up here running this show. She has made all 
kinds of exceptions for you and we have not objected to them. 
One was not getting the statement in 48 hours before the 
Committee hearing, but that is fine. I don't have a problem 
with that. The other is the witness time and so forth, but I 
think everyone is in agreement that is not a problem.
    I do have three requests, Madam Chairman. First of all, 
when I make a unanimous consent request for something to be in 
the record, I would like to have it be in the record 
immediately following my questions. Secondly, in the event the 
answer to a question that I have takes too long, Senator Gore, 
what I will do is reclaim my time, and that is within the 
authority of the members up here. And the third is, you have a 
tendency sometimes to ad lib and get more comments in, I want 
the same ad lib time that you have, and I don't think you would 
have any objection to that.
    [Laughter.]
    Senator Boxer. Absolutely not.
    Senator Inhofe. Good.
    Senator Boxer. Senator, I am going to put in the record at 
this time, the one, two, three, four, five occasions when your 
witnesses did not have statements before us, and we said fine, 
as long as they do their best.
    Senator Inhofe. And I said fine. That is fine.
    Senator Boxer. So I just want to make sure it goes in the 
record because this happens all the time, and we have never had 
it mentioned as a problem before. I think the Vice President 
has a reason as to why, and I think he will address that issue.
    Senator Inhofe. Let me respond to that.
    Senator Boxer. I have the time at this point.
    Senator Inhofe. That isn't quite accurate. We have always 
had it in by the day before, the night before. Sometimes not 48 
hours.
    Senator Boxer. I would like to start the hearing, and I am 
not going to tolerate interruptions. I am going to be very 
respectful to all of our Committee, but we need to get through 
this, and we have a lot of work to do.
    So I am going to turn this over for a 2-minute introduction 
to Senator Alexander.

        STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR 
                  FROM THE STATE OF TENNESSEE

    Senator Alaxander. Welcome back to the Senate, Al.
    It is my privilege to introduce and welcome back to the 
Senate one of Tennessee's foremost citizens, our former Vice 
President Al Gore and his wife, Tipper. Tipper, we are glad you 
are here as well.
    Al is not only a former member of the Senate, he is a 
former President of the Senate, and of interest to me, he is a 
former occupant of the Senate seat in which I now serve. Al, I 
did a little research about those who served in this seat. They 
included Andrew Jackson, Cordell Hull, Estes Kefauver, Howard 
Baker, and more recently, Fred Thompson and Al Gore, both of 
whom we have been reading more about lately. There seems to be 
something about sitting in this Senate seat that stirs up 
presidential ambitions.
    In Tennessee, we sometimes say about an especially 
determined horse that he gets the bit in his teeth and you 
can't turn him. Al Gore has had the bit in his teeth about 
climate change since he was a college student. Thirty years 
ago, he helped organize the first hearings in Congress about 
climate change.
    I believe that climate change is a real problem. I believe 
that human activity is a significant contributor to climate 
change. I believe that it is time for us to work in a 
bipartisan way to take steps to fix the problem.
    I believe these hearings and your testimony will help us do 
that. We are glad you are here. Welcome back to the Senate.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much, Senator.
    Senator Mikulski, will you please come up to the podium. 
Your chair is being brought to you. We give you 3 minutes to 
add your welcome.

       STATEMENT OF HON. BARBARA MIKULSKI, U.S. SENATOR 
                   FROM THE STATE OF MARYLAND

    Senator Milkulski. Thank you very much, Madam Chair and my 
colleagues. It is wonderful to be sitting next to Al Gore once 
again in the United States Senate.
    Thank you for the honor of letting me come here because I 
came into the Congress of the United States with Al Gore in 
1976. It was a star-spangled banner year and a star-spangled 
banner class, and Al was there leading the flag and waving the 
flag for environmental change even back there.
    Sitting next to him for 8 years on the Energy and Commerce 
Committee, I watched Al Gore lead the charge on some of the 
most important environmental legislation of our time: the 
amendments on the Clean Air Act; really, the Superfund site 
that cleaned up the mess; and safe drinking water.
    Al then went on to come to the U.S. Senate where he chaired 
the Subcommittee on Science and Tech and Space on the Commerce 
Committee. He was the first Senator to sponsor the World 
Environmental Policy Act. Why was that important? Well, guess 
what? It authorized policies to mitigate global warming and 
reduce carbon dioxide emissions. It also picked up on a new 
idea promoted by Sally Ride, called: We ought to study our own 
planet as if it were a distant star.
    Of Al Gore's work, then Senator Gore, came the whole idea 
at NASA for Mission to Planet Earth. He was the authorizer, I 
was the appropriator, and we worked together to do that.
    But as Vice President then, he went on to continue to be an 
advocate for the issues related to climate crisis, but always 
based on science. What Al Gore is known for is let's pursue 
sound science, ungagged and unfettered, with intellectual 
rigor. And Al Gore helped create a global awareness of the 
consequences of global warming.
    So for him, it has been a life-long advocacy and a life-
long passion. We need to listen to him as ever before. What he 
has to tell us might be inconvenient, but it will always be the 
truth.
    Al Gore.
    [Applause.]
    Senator Boxer. Thank you so much, Senator Mikulski. I am 
glad that you had a chance to visit with Senator Gore. I don't 
know whether to say Vice President Gore, Senator Gore, Al, 
Tipper. We are just happy that you could join us today.
    I do want to recognize Mrs. Gore here. We are thrilled that 
you could be here as well, Tipper.
    I am pleased to officially welcome Vice President Gore to 
the Environment and Public Works Committee.

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                  FROM THE STATE OF CALIFORNIA

    Senator Boxer. Mr. Vice President, we are honored and we 
are privileged to have you with us today to discuss one of the 
most important challenges facing humankind, global warming. You 
know, there are some moments in human history when individuals 
have the ability to make a difference. Sometimes it is a series 
of actions by one person or a group of people. Sometimes it is 
a single act of defiance. I think about Rosa Parks. Sometimes 
it is the simple, simple telling of a great truth, however 
inconvenient. And that act can spark enormous change with long-
lasting effects.
    Professor Roger Ravelle, who began making the first 
measurements of CO<INF>2</INF> in the atmosphere, was your 
spark, Mr. Vice President. We learned that from your movie. 
From that, you became a spark that has ignited the global 
warming debate in America. I don't think there is any question 
about that.
    Personally, I believe your work has made all the difference 
for the future of our planet and for our children and our 
grandchildren, because when the history of this issue is 
written, your name will be at the forefront. I only hope the 
story has a good ending. That, my friends, is up to us.
    The recent report by the IPCC, written by hundreds of 
scientists from around the world and peer-reviewed by many 
more, including NOAA scientist Susan Solomon, confirms 
conclusively that the Earth is warming due to human activity. 
Some will say this report was not written by scientists. Yes, 
it was. Their names are listed on the front of the report. 
These scientists briefed our very Committee.
    The IPCC report tells us that warming is unequivocal; that 
CO<INF>2</INF> levels are higher than at any time in the past 
650,000 years; and there is a 90 percent certainty that most of 
the warming is due to human activity.
    It also tells us that since 1961, the average temperature 
of the ocean has increased. That is 1961, that the ocean is 
absorbing 80 percent of the heat added to the climate system 
and the ocean is becoming increasingly acidic from absorbing 
carbon dioxide.
    But some persist in disbelief and disregard of the facts. 
They say, for instance, that the sun is causing global warming, 
but the President of the National Academy of Sciences testified 
before us and said changes in the sun can't explain the warming 
we have seen over the past 25 years.
    Some say there is no linkage between hurricanes and global 
warming, but the IPCC report makes it clear there is. Some say 
Greenland and Antarctica are not melting, but the IPCC says, 
``Losses from the ice sheets of Greenland and Antarctica have 
very likely contributed to sea level rise between 1993 and 
2003.''
    Some say that limits on greenhouse gases are unworkable and 
the U.S. has reduced emissions more than the European Union. 
The truth is that since 1990, U.S. emissions have risen by 15.8 
percent and EU emissions have declined by 0.8 percent. These 
are the inconvenient truths that many would like to avoid.
    Vice President Gore, you have not waited. You have acted 
for us. You have acted more than anyone else. You have shown us 
the true dangers that global warming poses for the future of 
our planet. But you have done much more than that, because you 
looked at solutions and you give us hope and you give us reason 
to be optimistic.
    The time for action is now. The next decade will likely 
tell the tale of whether we as a species have been able to act 
decisively to protect our planet. We have a choice, and we can 
move in the right directions. We can become energy efficient 
and reduce our dependence on foreign sources of energy. We can 
develop new technologies that can create jobs and we can export 
those technologies to China and India.
    I think most of all, we can work together, as Senator 
Alexander said, Republicans and Democrats. And in this 
Committee, we have done so much in the past.
    I am going to take an additional 40 seconds, which I will 
give to my colleague.
    This Committee, after the Cuyahoga River caught fire in 
Ohio in 1969, this Committee responded with the Clean Air Act 
in 1972. This Committee acted when the air was so dirty you 
could see it. We responded in 1970 with the Clean Air Act. And 
when contaminated tap water was causing widespread waterborne 
disease, this Committee passed the Safe Drinking Water Act in 
1974.
    So colleagues, I think we are up to the challenge. With the 
people that we have on this Committee on both sides of the 
aisle, we can do this.
    Mr. Vice President, after we hear from the Ranking Member, 
I really look forward to hearing from you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Boxer. Five minutes for you.
    Senator Inhofe. Thank you.

        STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR 
                   FROM THE STATE OF OKLAHOMA

    Senator Inhofe. In spite of what you might think to the 
contrary, I am really glad to have you here, Senator Gore. We 
are very close up here. People don't believe that, but we are.
    Let me just say this, though. One thing about this hearing 
is we know your perspective. You know my perspective, and so I 
am going to go ahead and make a couple of comments, stay within 
my timeline, and look forward to your testimony. Then I do have 
some questions, then I look forward to that dialogue.
    My perspective has been that some of the statements that 
you have made have inaccuracies and have been misleading. A lot 
of the peer-reviewed scientists who have written in Nature 
magazine, Geophysical Research letters, and Science are 
radically at odds with your claims.
    Now, there is not time in 5 minutes to go into all of them. 
I will just mention two at the outset that might stimulate some 
response.
    First, you claim a strong new emerging consensus linking 
global warming to an increase in hurricane intensity and 
duration, as the Chairman mentioned. Last year, the World 
Meteorological Organization very clearly rejected this 
assertion and other scientists agree.
    Secondly, you said that, and this is a good one here--this 
scares everybody--you said that the East Antarctica might melt 
and this could raise sea levels by 20 feet, so we are all going 
to die. However, according to many scientists, the Antarctica 
is gaining ice mass, not losing it. In 2005, a study published 
in Science by a team of researchers led by Dr. Curt Davis found 
that the overall ice mass in the Antarctica was actually 
increasing.
    The public is catching on. Even the New York Times, and I 
am sure you read this, last week had an article, Mr. Vice 
President, that said that you have been so extreme in some of 
your expressions that you are losing some of your own people.
    Now, given that, it is no wonder that you have turned down 
some of the opportunities people have asked for for debates. 
Now, there is a reason for this. This happened only last week. 
There was a debate, and when it is balanced--and let me make 
sure we understand. When I talk about skeptics, I am talking 
about scientists who believe that the science is not settled. 
When I talk about alarmists, I am saying they are the ones who 
think that it is settled. Okay?
    When the debate is balanced, the skeptics win; the 
alarmists lose. In New York last week, a major debate took 
place to examine whether, and this is the goal, global warming 
is a crisis. Prior to the debate, the hand-wringers, the 
alarmists, your guys in the audience outnumbered those who 
didn't think it was a crisis by two to one. After the debate, 
it completely reversed.
    Now, that shift mirrors a larger one taking place in the 
scientific community. Claude Allegra is a French geophysicist 
on both the French and the United States Academy of Sciences. 
He and Nir Shaviv from Israel, he is an astrophysicist, 
meteorologist Reid Bryson----these are all people who were on 
your side, who were marching down 10 years ago right there hand 
in hand with you. They have all reversed their position now. 
These were the national leaders reversing their positions.
    Now, lastly the cost. The cost of global warming is huge. 
We had a hearing, Mr. Vice President, in this Committee where 
we had many of the companies who came in and were embracing the 
idea that manmade gases are causing climate change, only to 
find out that without exception, each one of the five companies 
that was here testifying, they stood to gain not millions, but 
in a couple of cases billions of dollars if we should put a cap 
and trade policy or reductions on CO<INF>2</INF>.
    And of course, the amount of money it would cost is just 
really astronomical. I can remember in 1993, Mr. Vice 
President, when I was on the Senate floor when we had this huge 
tax increase called the Clinton-Gore tax increase of 1993, a 
$32 billion tax increase. I was opposed to it, but you guys won 
and I lost.
    The estimates now on whether it is Kyoto or any of the 
other schemes to reduce CO<INF>2</INF> is estimated to be in 
excess of $300 billion. Now, your estimate from your 
Administration, it was actually $338 billion. That is 10 times 
the tax increase of 1993.
    Now, here is the problem with it. Not only is that a tax 
increase, but it is disproportionately on the poor, the people 
on fixed incomes, the elderly, the individuals who as a 
percentage of their monthly budget spend five times more on 
energy than the average household.
    So I consider this the largest tax increase in history, 10 
times greater than the Clinton-Gore tax increase of 1993. The 
poor have to pay for it. The science isn't there. It is 
something that we just can't do to America, Mr. Vice President, 
and we are not going to do it.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Thank you for holding this hearing, Madame Chairman, and to 
you also, Mr. Vice President, for agreeing to come before our 
Committee to testify about your perspectives. Your views are 
already known to many Americans, but today will allow us to 
engage in a dialogue which should be interesting.
    It is my perspective that your global warming alarmist 
pronouncements are now and have always been filled with 
inaccuracies and misleading statements. Many of the peer-
reviewed studies published in such journals as Nature, 
Geophysical Research Letters, and Science are radically at odds 
with your claims. I do not have time to delve into each flaw 
with your movie, but I do want to touch on just 2.
    First, you have claimed that there is a ``strong, new 
emerging consensus'' linking global warming to an increase in 
hurricane intensity and duration. Yet last year, the World 
Meteorological Organization very clearly rejected this 
assertion, and other scientists agree.
    Secondly, you said that East Antarctica might melt and this 
could raise sea levels by 20 feet, so we're all going to die. 
However, according to many scientists, Antarctica is gaining 
ice mass, not losing it. In a 2005 study published in Science a 
team of researchers led by Dr. Curt Davis found an overall gain 
in ice mass in Antarctica over a ten-year period.
    And the public is catching on. Even the New York Times last 
week published an article about scientists, many of them your 
supporters, who say you have overstated your case on global 
warming--in fact, they warn that you may be hurting the so-
called cause with your ``alarmism.''
    Given that, it is no wonder you have turned down the chance 
to debate the President of the Czech Republic, Vaclav Klaus. 
And now I understand a debate challenge has been issued by Lord 
Monckton of Benchley.
    Now there is a reason for this.
    When the debate is balanced, skeptics win, alarmists lose. 
In New York last week, for instance, a major debate took place 
to examine whether global warming is a crisis. Prior to the 
debate, the hand-wringers, the alarmists, in the audience 
outnumbered those who didn't think it was a crisis 2 to 1. 
After the debate, the alarmists were outnumbered--a major 
turnaround in beliefs in a single night.
    That shift mirrors a larger one taking place in the 
scientific community. Claude Allegre, a French geophysicist--
Nir Shaviv, an Israeli astrophysicist--and meteorologist Reid 
Bryson have converted from alarmists to believing that climate 
variability is largely natural. In short, the ranks of 
converted scientists are skyrocketing.
    Lastly, the cost: Global warming is now big business. 
Thousands of individuals and even some Fortune 100 companies 
stand to make tens of billions of dollars.
    I was on the floor opposing the '93 Clinton-Gore tax 
increase of $32 billion, but the cost of Kyoto and other 
CO<INF>2</INF> reduction schemes are estimated to be over $300 
billion, ten times the cost of your '93 tax increase. And who's 
paying for it? Those on fixed incomes and the poor, who as a 
percent of their monthly budget spend five times more on energy 
than the average household.
    Largest tax increase in history--10 times Clinton-Gore of 
'93 and the poor pay for it and the science isn't there. We 
just can't do that to America, Mr. Vice President and we're not 
gonna.
    Thank you.

    Senator Boxer. Thank you, Senator Inhofe.
    Mr. Vice President, you have 30 minutes to use in whichever 
way you would like.

  STATEMENT OF THE HON. AL GORE, FORMER VICE PRESIDENT OF THE 
  UNITED STATES AND FORMER SENATOR FROM THE STATE OF TENNESSEE

    Mr. Gore. Thank you very much, Madam Chair. Thank you so 
much for your generous invitation to come and be here today.
    Senator Inhofe, thank you for your words of welcome. I look 
forward to questions and an exchange of views here.
    To my fellow Tennessean, Lamar Alexander, Senator 
Alexander, Lamar, thank you so much for your kind words and 
your warm welcome. I want to note for the Committee what I am 
sure most of you know. Senator Alexander as Governor of our 
State was associated with keen attention to environmental 
protection in a way that was quite sensitive to economic 
development, and is part of a tradition that includes Senator 
Baker and others from the time when the issue of protecting the 
environment was genuinely a bipartisan issue. Some of us 
believe that it is not now and should be. I understand there 
are differences in the way that would be phrased here today, 
but I want to acknowledge the record of one of my Senators, 
Lamar Alexander.
    Senator Mikulski and I served together in the House of 
Representatives, as she noted, and in this chamber. And there 
were multiple pieces of legislation that our two names on them. 
It was always a pleasure and an energizing experience to work 
with Senator Mikulski. I am honored that you would come and do 
this here today. Thank you so much.
    To the other members of the Committee, I have so many close 
friends on this Committee. Forgive me for not going down the 
aisle, but I want to acknowledge my respect for all the members 
of the Committee.
    My father served here in this chamber. I was reflecting 
this morning on the differences that have occurred since he 
first came to Washington in 1938. There are all kinds of jokes 
about the hot air on Capitol Hill. I am not going to make those 
jokes, but I am going to refer to the air on Capitol Hill, 
because when he came here in 1938 there were around about 300 
parts per million of CO<INF>2</INF> in the air that he and his 
colleagues in this Senate breathed. Today, it is 383 parts per 
million.
    It didn't really go above 300 parts per million for at 
least a million years back, maybe longer, but in the Antarctic 
ice record, that is about as far back as they can go. Even 
though the Earth has gone through all these big swings in 
natural cycles, the CO<INF>2</INF> content never went above 300 
parts per million in all that time.
    And just in the short span of time from my father's first 
service in the Capitol here and today, it has gone up a 
dramatic amount. More CO<INF>2</INF> means warmer temperatures. 
There really should be no doubt about that. That has been known 
for 180 years. And for at least 100 years, they have known 
roughly how much the temperature would go up with what 
concentrations of extra CO<INF>2</INF>.
    For most of human history, we lived on the harvested energy 
that came from the sun, and it was a net energy balance. Then 
with the beginning of the use of coal and then oil and other 
fossil fuel supplies, we began to use the accumulated 
reservoirs of hundreds of millions of years worth of 
accumulated solar energy. Of course, that meant returning 
carbon to the atmosphere in very large quantities. From the 
early days of that period, there were a few scientists who 
said, wait a minute, that is going to have some consequences. 
And it did.
    It has now reached a point where we have literally changed 
the radiated balance between the Earth and the sun. The 
scientists who study global warming gained a lot of their 
expertise by looking at the other planets in the solar system. 
Mars has just 1 percent of the Earth's atmosphere, and the 
temperature is not 15 degrees centigrade or 59 Fahrenheit, it 
is 55 below zero on average, because the CO<INF>2</INF> doesn't 
trap the heat.
    Venus, by contrast, has much more CO<INF>2</INF> and the 
temperature is above the boiling point of lead and it rains 
sulphuric acid, not the kind of weather forecast you want to 
see in the morning. And it is not because Venus is closer to 
the sun, because it is much hotter than Mercury, even though 
Mercury is right next to the sun. It is the CO<INF>2</INF>. 
This is extremely well established, well understood, and well 
known.
    Senator Boxer, I want to start off by saying that there is 
really hardly any way to overestimate or overstate the degree 
of hope that people out in our country have because of what you 
are doing, because of what this new Senate and Congress 
everybody hopes will do. This is not a normal time. We are 
facing a planetary emergency and I am fully aware that that 
phrase sounds shrill to many people's ears, but it is accurate.
    The relationship between humankind and planet Earth has 
been radically altered in a very short period of time. What 
would make us believe that we could go through these changes 
and not have an impact on the planet? We have quadrupled human 
population in less than 100 years, from 1.6 billion in 1900 to 
6.56 billion today. And that is stabilizing of its own accord, 
as girls are educated and women are empowered, and girls and 
women gain literacy, and as family planning that is culturally 
acceptable is made more widely available in every nation, and 
most importantly as infant mortality goes down and maternal and 
infant health standards go up.
    The death rates come down first, and then after a few years 
the birth rates come down and the population of the Earth is 
stabilizing. But with a four times increase in less than a 
century, our impact on the planet has been dramatically 
changed.
    Secondly, and more importantly, the technologies we have at 
our disposal today are thousands of times more powerful than 
any that our grandparents had available to them. That makes all 
of our activities more effective and productive, but it also 
makes us sometimes like the proverbial bull in a china shop, 
and we are capable of doing damage that we are not always fully 
aware that we are doing. Of course, the common assumption is 
the Earth is so big we couldn't possibly have a lasting harmful 
impact on it.
    But the most vulnerable part of the Earth's ecological 
system, the scientists tell us, is the atmosphere. It is so 
thin. The number of molecules is known. They say it is 10 to 
the 44, which is above my pay grade. It sounds like a big 
number, but compared to what we are able to put into it every 
hour of every day now, it is not that big. It is just a few 
miles from here to the top of the sky before we can't breathe 
anymore. So we are changing its composition.
    We are putting 70 million tons every day of this global 
warming pollution into the Earth's atmosphere. As you noted, 
Madam Chair, 25 million tons go into the oceans every day. And 
that is literally making the oceans more acidic. But where the 
atmosphere is concerned, that extra CO<INF>2</INF> is retaining 
in the atmosphere much more of the outgoing infrared that 
normally escapes back into space and keeps a normal healthy 
balance within which humankind has developed, and within which 
all of our civilization has evolved, and all the cities have 
been located, and all the ports and the places where the rain 
can be predicted to fall reliably enough for agriculture. And 
we are putting all those patterns at risk.
    The 10 hottest years ever measured in the record have been 
since 1990. Twenty of the 21 hottest years have been in the 
last 25 years. The hottest year of all was 2005. The hottest 
year of all in the United States was 2006. The hottest winter 
ever measured worldwide was this winter, December, and then 
January and February of this year, last month. This is going on 
right now and it is continuing to increase.
    The scientific leaders of the world have given us the 
fourth unanimous report in less than 15 years. They gathered 
this time in Paris 6 weeks ago. They said the evidence 
supporting this consensus is, and I quote them, ``unequivocal, 
unequivocal.'' Scientific American had a special issue in 
September that began with an article that said the debate on 
global warming is over. The editor in chief of Science magazine 
said it is extremely rare to have a consensus as strong as the 
one supporting the consensus view on manmade global warming.
    It is real. We are causing it mainly, the vast majority of 
it. The consequences are bad and will be catastrophic unless we 
act. We can act. We can solve it. There is still time. And we 
have everything we need to get started. Those points are in 
agreement.
    One of the leading scientific experts said the consensus 
supporting this view on global warming is as strong as anything 
in science, with the possible exception of gravity.
    [Laughter.]
    Mr. Gore  This is a challenge to our moral imagination 
because the natural tendency for me, for all of us, is to think 
that something this big and this challenging is not real; we 
don't want it to be real; it is hard to think about. 
Contemplating changes to deal with it automatically creates a 
feeling of discomfort. We just wish it would go away. It is not 
going away. We have to deal with it.
    As I started to say, Madam Chair, the people out there in 
our country are so hopeful that this Senate will act, and that 
this Congress will act. And they know how hard it is. I want 
you to know that there is a big change in public opinion that 
is building out there.
    I am going to deliver to your offices, I didn't bring all 
the boxes with me from the House side, where I spoke this 
morning, but they are being delivered electronically to your 
offices. I have a site called algore.com and just a few days 
ago we started asking people to join in presenting this 
statement. And 516,000 Americans signed it just in the last 
several days. We have been getting new names at the rate of 100 
per second.
    This should not be seen as a partisan issue. Sometimes you 
will hear people say that, and you think, oh, it is just 
boilerplate, it is a throwaway. He is trying to get some 
Republicans to vote for it. This really shouldn't be seen as a 
partisan issue or even a political issue.
    It is a moral issue. There are some times in history when a 
small number of people in one place have to make difficult 
decisions that will affect the future for everybody. One of the 
most popular movies out there now is 300. I haven't seen it, 
but the young people love it. It is about the battle of 
Thermopylae in 480 B.C. when, Senator Warner, you are a great 
military historian, and I would love to hear you talk about 
this sometime. As you know, 300 saved the future of Western 
Civilization against 10,000, one of the great stories of 
courage when a few made a decision for the many.
    The Greatest Generation, the label we give to the 
generation that won World War II and defeated fascism in the 
Atlantic and the Pacific simultaneously, rose to the challenge 
of fascism and in the process saved our country. Significantly, 
when they came back here, no longer 19, 20, or 21 year olds, 
they found that they had gained moral authority. Senator 
Warner, you were one of the youngest members of that 
generation. Weren't you part of World War II? God bless you and 
thank you. Thank you.
    And when your generation came back, the GI's General Omar 
Bradley said, ``Now is the time when we have to steer by the 
stars, and not by the lights of every passing ship.'' Another 
General, George Marshall, said, ``Let's go and lift our 
adversaries from the battlefield from their knees and walk with 
them toward self-determination and prosperity.'' And your 
generation said ``yes.''
    And you adopted a 50 year horizon, and established the 
institutions that help this world move in a positive and 
favorable direction. And you know what? They don't export world 
wars from Europe anymore, because a United Nations was 
established in your home town, Senator Boxer, and then a lot of 
other steps were taken. Our mutual predecessor, Cordell Hull, 
helped establish the world trading system, reciprocal free 
trade, as he would always remind us to say.
    Now, this generation and this Senate faces such a 
challenge, the few. The stakes are high. The time is now. The 
people are hopeful. It can be done.
    I just came last week from the United Kingdom. I met with 
not only the Chancellor of the Exchequer and leaders of the 
Labor Party in power there, but also the Tories. I met with 
their entire front bench, 80 of them. And both of their major 
parties are unified in their determination to solve this 
climate crisis. It is not partisan. They are competing with one 
another. They have an election coming up probably later this 
year. Who knows. Their system is different, you know, but they 
are competing vigorously with one another.
    But they are competing on the basis of which party can 
offer the most creative and meaningful solutions to this 
crisis. They are not arguing about the science. They are 
arguing about how to design solutions that will go farther 
faster. And they joined with all of their European neighbors 
just last week when I was over there, to adopt a much tougher 
reduction, mandatory reduction in CO<INF>2</INF>, 20 percent, 
and 30 percent if we join in the global effort to address this 
crisis.
    We are the leaders of the world. The United States of 
America is the leader of the world, and the members of the 
Senate and the House in this legislative branch of Government 
are the ones. The history of freedom is the history of 
legislative bodies.
    In that time after World War II, what made it possible for 
that Greatest Generation to claim that title and change the 
world after saving the world, was Republicans, led by Senator 
Arthur Vandenberg and others, stood and said we are Americans 
first, and we see the challenge, and we are going to do the 
uncommonly difficult; we are going to do our duty as we see it.
    Now is such a time. We have too much partisanship. Every 
one of us, myself at the front of the line, has contributed too 
much to it. But a time will come, I promise you, a time will 
come when a future generation will look back on 2007 at this 
hopeful time, and they will ask one of two questions. Either 
they will ask: What in God's name were they doing? Didn't they 
see the evidence? Didn't they hear the warnings? Didn't they 
see the mountain glaciers melting in every part of this Earth? 
Didn't they see the north polar ice cap melting? Didn't they 
hear the scientists say it may be gone in as little as 34 
years? Didn't they hear the seismographers telling them that 
the Earth is shaking because of the glacial earthquakes on 
Greenland? Thirty-two of them this year, up to 5.1 on the 
Richter scale.
    Didn't they see the evidence of nature being on the run? 
Senator Alexander, we had, and maybe you saw this, I get 
clippings and what not that other people don't necessarily get. 
Manatees live in South Florida. One of them showed up off 
Memphis this summer. Yes, the first time ever. Have you ever 
seen a manatee in Memphis? No.
    [Laughter.]
    Mr. Gore  It got too hot in Southern Florida. I am not 
making this up. Another one showed up off of Cape Cod, the 
first time ever. Nature is on the run.
    Senator Inhofe, there were some big fires in Oklahoma last 
year. All over the west, there have been these big fires. A 
brand new study in the scientific peer-reviewed literature now 
definitely links it to global warming. When there is an earlier 
spring melt and the precipitation doesn't keep the soil moist 
enough, the soil dries out from the higher temperatures, and 
the vegetation dries out, and they call that kindling. And all 
over the west, the fires have been raging out of control. They 
have megafires in Australia now, and what some of them call a 
thousand year drought, and fires across Russia also.
    I want to talk to you a little bit about some ideas that I 
believe could hopefully help in your deliberations. First of 
all, I think that we ought to have an immediate freeze on 
CO<INF>2</INF> emissions and start the reductions from there. 
All the talk about prospective cuts, all the time we have been 
talking about prospective cuts, the emissions have continued to 
increase. I think we ought to have an immediate freeze.
    I remember back in the days of the nuclear freeze, I was 
opposed to that, but it sure mobilized public opinion. And it 
helped, Senator Warner, when you and I and some others were 
working with Sam Nunn and Norm Dicks and President Reagan, and 
we built a bipartisan coalition to move in the right direction, 
and we got it done. And a freeze helped on that. Neither one of 
us was for it, but I am for a freeze on carbon emissions. And 
then I think we ought to have reductions from there.
    Secondly, I think that we ought to use the tax code, not to 
increase taxes, Senator Inhofe. I am not for that. And what I 
am about to propose to you, I am fully aware is considered way 
outside the range of what is considered politically feasible, 
so I would advise you not to spend too much of your ammunition 
on it because people don't yet think it is going to be on the 
agenda.
    But here is what I think we should do. I think we ought to 
cut taxes on employment and take that burden off employees and 
employers and make up the difference with pollution taxes, 
principally CO<INF>2</INF> taxes. Some other countries are 
talking about it seriously, because in the developed world, we 
are now in a new competitive global environment.
    Our big disadvantage is these developing countries with big 
populations, still growing significantly, with low wage rates, 
all of a sudden have access in an IT-empowered world to the 
best technology in container shipping, and we are competing 
with them. And we don't want to lower our wages, but we don't 
have to pile on top of the wages the full cost of our health 
and welfare and Social Security and social programs. We ought 
to be encouraging employment and small business, and 
discouraging pollution instead of the other way around. We 
ought to use some of that revenue to help the poor with the 
adjustments that are coming forward.
    Third, the third suggestion, I am in favor of cap and trade 
as part of the freeze. I am very strongly in favor of it. I 
have supported Kyoto, but I understand the realities of the 
situation. I think the new President, who takes office in 
January of 2009, should take office at a time when our country 
has a bipartisan commitment to de facto compliance with Kyoto, 
and then I think we should move the starting date of the next 
treaty period, now due to begin in 2012, forward two years to 
2010. And we ought to start a sprint to negotiate and ratify a 
new, tougher treaty that starts in 2010. We need to find a 
creative way to get China and India involved sooner, rather 
than later.
    That is a tough challenge and an important one for many 
reasons, not least because China's emissions will be larger 
than those of the United States in another couple of years. And 
it has to be a negotiation, and there are factors like land 
cover and methane that might be used to get them involved 
sooner, rather than later. But we need to focus on ratifying a 
cap and trade system so the market will work for us instead of 
against us.
    I remember, incidentally, Senator Warner, when I was 
working on arms control under former President Carter and the 
SALT II Treaty was withdrawn from the Senate. And then 
President Reagan, after a few years, had even deeper reductions 
and call it START and everybody was for that. I think it will 
be good to have a new treaty. Let's comply with Kyoto, but 
let's ratify a new treaty earlier, rather than later.
    Third, I believe that we ought to have a moratorium on any 
new coal plants that are not fixed with carbon capture and 
sequestration technology. It is simply irresponsible to go 
forward without carbon capture and sequestration.
    Fifth, I believe that this Congress, this Senate should fix 
a date in the future beyond which incandescent light bulbs are 
banned and there may be some other technologies that fall in 
that category. Give the industry time to make sure all the 
sockets are worked out and all the dimmers and all the things 
that people want, but then tell them by a date certain you are 
going to have to sell this other kind. And they will do it. 
They will make money at it.
    It is like Wal-Mart. Wal-Mart has not taken on the climate 
crisis simply out of the goodness of their hearts. They care 
about it, but they are making money at it. And if we set the 
standards, our economy will work for us.
    Sixth, the creative power of the information revolution was 
unlocked by the Internet. When the scientific and engineering 
pioneers came up with Arpanet and this Senate empowered them 
with a legislative framework and research and development 
funds, all of a sudden people just developed it amazingly. We 
ought to have an Electranet, and we ought to encourage widely 
distributed power generation by homeowners, by small business 
owners.
    And here is the key: We ought to take off the cap. Let them 
sell as much as they want to into the grid. And remember that 
the flip side of a monopoly is a monopsony, the tyranny of a 
single buyer. Don't let the utility in each area decide how 
much they are going to pay homeowners or business people for 
selling the electricity. Set the rate the way a public utility 
commission does now.
    Have a tariff that reflects the market price. You may never 
have to build another central generation power plant. You 
watch. You give them the ability, individuals out there, 
families, small businesses, they are going to go to town with 
this, an Electranet.
    Then I think we ought to raise the CAFE standards for auto 
efficiency. I do think it ought to be part of a comprehensive 
solution. Don't single out autos as the main culprit. It is 
part of it and it is a significant part of it. And so we ought 
to raise CAFE standards as part of a larger package.
    Next, I would propose that you pass a carbon neutral 
mortgage association or Connie Mae. And here is why. The buyers 
of new homes and homebuilders and sellers of new homes, all 
focus on the purchase price. The market clears it. It is a very 
sensitive number. But the expenditures that go into more 
insulation and window treatments and the expenditures that 
don't pay back immediately, but they pay back over two or three 
years in lower energy bills, they are not used because they 
raise the purchase price. Put those in a separate instrument, 
and have a Connnie Mae that bundles those and sells them in the 
marketplace. Then when you go to a closing, you sign your 
mortgage, and the banker and the seller say, now here is your 
Connnie Mae here; this is going to lower your electricity 
bills; you are going to save and reduce CO<INF>2</INF> at the 
same time.
    You ought to also, and I will respectfully recommend, and 
this is my last recommendation, require corporate disclosure of 
carbon emissions. Investors have a right to know about material 
risks that could affect the future value of the stocks that 
they purchase. They are not now routinely reported. You may 
know that just two days ago, pension funds managing a total of 
$4 trillion called upon the Congress and the SEC to require 
these disclosures.
    Finally, Madam Chair and Senators, as many of you know, the 
Chinese and Japanese way of expressing the concept ``crisis'' 
in the kanji characters uses two symbols. The first means 
``danger'' and the second means ``opportunity.'' With all the 
focus on the danger of this crisis, which I think is the 
gravest we have ever faced, I want to close by reemphasizing my 
belief that it is also the greatest opportunity we have ever 
confronted.
    We can become more efficient and more productive. We can 
create more jobs and lift our standards of living. And in the 
process, we can save the habitability of this planet and tell 
that future generation that we were up to the challenge and we 
did what some thought was impossible. We did it on a bipartisan 
basis. And in the process, we gained the vision and moral 
authority in our generation to take on these other challenges 
that also need our attention.
    Thank you.
    [The prepared statement of Mr. Gore follows:]

 Statement of Hon. Al Gore, Former Vice President of the United States 
             and Former Senator from the State of Tennessee

     Madam Chairman, Senator Inhofe, and members of the 
Committee, I want to thank you for your gracious invitation to 
be here today, giving me the opportunity to return to the 
Senate to talk about the climate crisis.
    I want to testify today about what I believe is a planetary 
emergency--a crisis that threatens the survival of our 
civilization and the habitability of the Earth. Just six weeks 
ago, the scientific community, in its strongest statement to 
date, confirmed that the evidence of warming is 
``unequivocal.'' Global warming is real and human activity is 
the main cause. The consequences are mainly negative and headed 
toward catastrophic, unless we act. However, the good news is 
that we can meet this challenge. It is not too late, and we 
have everything we need to get started.
    As many know, the Chinese expression for ``crisis'' 
consists of two characters side by side. The first symbol means 
``danger.'' The second symbol means ``opportunity.'' I would 
like to discuss both the danger and the opportunity here today.
    First of all, there is no longer any serious debate over 
the basic points that make up the consensus on global warming. 
The ten warmest years on record have all been since 1990. 
Globally, 2005 was the hottest of all. In the United States, 
2006 was the warmest year ever. The winter months of December 
2006 through February 2007 make up the warmest winter on 
record. These rising temperatures have been accompanied by many 
changes. Hurricanes are getting stronger. Sea levels are 
rising. Droughts are becoming longer and more intense. Mountain 
glaciers are receding around the world.
    New evidence shows that it may be even worse than we 
thought. For example, a recent study published by the 
University of Alaska-Fairbanks indicates that methane is 
leaking from the Siberian permafrost at five times the 
predicted levels. Methane is 23 times as potent a greenhouse 
gas as carbon dioxide and there are billions of tons underneath 
the permafrost.
    However, there is a great deal of new momentum for action 
to solve the climate crisis. Today, I am here to deliver more 
than a half million messages to Congress asking for real action 
on global warming. More than 420 Mayors have now adopted Kyoto-
style commitments in their cities and have urged strong federal 
action. The evangelical and faith communities have begun to 
take the lead, calling for measures to protect God's creation. 
The State of California, under a Republican Governor and a 
Democratic legislature, passed strong, economy wide legislation 
mandating cuts in carbon dioxide. Twenty-two states and the 
District of Columbia have passed renewable energy standards for 
the electricity sector. Much more needs to be done, but change 
is in the air.
    I do not believe that the climate crisis should be a 
partisan political issue. I just returned from the United 
Kingdom, where last week the two major parties put forward 
their climate change platforms. The Tory and Labour parties are 
in vigorous competition with one another--competing to put 
forward the best solution to the climate crisis. I look forward 
to the day when we return to this way of thinking here in the 
U.S.
    The climate crisis is, by its nature, a global problem--and 
ultimately the solution must be global as well. The best way - 
and the only way - to get China and India on board is for the 
U.S. to demonstrate real leadership. As the world's largest 
economy and greatest superpower, we are uniquely situated to 
tackle a problem of this magnitude.
    After all, we have taken on problems of this scope before. 
When England and then America and our allies rose to meet the 
threat of global Fascism, together we won two wars 
simultaneously in Europe and the Pacific.
    This is a moral moment of similar magnitude. This is not 
ultimately about any scientific discussion or political 
dialogue. It is about who we are as human beings and our 
capacity to transcend our limitations and rise to meet this 
challenge.
    The solutions to this problem are accessible, but 
politically - at least in the near term - seem quite difficult. 
In practice, however, they will turn out to be much easier than 
they appear to us now.
    For example, the Montreal Protocol on Substances that 
Deplete the Ozone Layer first negotiated in the 1980's was 
opposed by industry for fear it would hurt the economy because 
its provisions were too stringent. However, governments and 
industry rose to meet the challenge and the treaty was 
strengthened twice in quick succession to quickly ramp down the 
chemicals that were causing the hole in the ozone layer.
    There are some who will say that acting to solve this 
crisis will be costly. I don't agree. If we solve it in the 
right way, we will save money and boost productivity. Moreover, 
the consequences of inaction would be devastating to both the 
environment and the economy. Recent reports make that clear.
    When I think about the climate crisis today I can imagine a 
time in the future when our children and grandchildren ask us 
one of two questions. Either they will ask: What were you 
thinking, didn't you care about our future? Or they will ask: 
How did you find the moral courage to cross party lines and 
solve this crisis? We must hear their questions now. We must 
answer them with our actions, not merely with our promises. We 
must choose a future for which our children and grandchildren 
will thank us.
                                ------                                


           Responses by Al Gore to Additional Questions from 
                             Senator Inhofe

    Question 1. In your testimony before the House of 
Representatives on March 21st, you made the point that you have 
not asserted hurricane frequency will be increased by global 
warming. Yet there are repeated mentions by you of this 
asserted link in your book An Inconvenient Truth. Now that you 
have had time to reflect, do you wish to modify your statement 
on March 21st, or, given the statements in your book, do you 
now admit that you were mistaken when you repeatedly claimed 
global warming would cause an increase in the number of 
hurricanes?
    Response. No.

    Question 2. Based on your pro rata share of the offsets 
sold by the company(ies) from which carbon offsets have been 
purchased on your behalf, how many tons of carbon-equivalent 
emissions have been reduced to date from completed projects 
(i.e. how much carbon has actually been sequestered to date)? 
Since you have stated that we only have 10 years to act on 
global warming, do not count projects that are being 
``planned'' or tree sequestrations that will not occur for 
years of decades. In short, how many tons of carbon have been 
actually reduced from the atmosphere so far by the companies 
that sold you offsets and what is your ``share'' of those 
reductions?
    Response. I am unable to obtain the aggregate data that you 
have requested from the offsetting firms with which I work. My 
pro rata share of emissions offsets is difficult to provide to 
you. However, the methodology that is used gives me a very high 
degree of confidence that my emissions are more than fully 
offset.

    Question 3. What is the estimated amount of carbon emitted 
into the air from your private jet travel each year, and how 
does this compare to the carbon emissions from driving a Hummer 
15,000 miles?
    Response. This is impossible to calculate based on the 
information in the question.

    Question 4. At the hearing, I asked you to take the 
following pledge:
    As a believer:
    that human-caused global warming is a moral, ethical, and 
spiritual issue affecting our survival;
     that home energy use is a key component of overall energy 
use;
    that reducing my fossil fuel-based home energy usage will 
lead to lower greenhouse gas emissions; and
     that leaders on moral issues should lead by example;
    I pledge to consume no more energy for use in my residence 
than the average American household by March 21, 2008.
    Given that hundreds of Americans--a great many of whom 
could not afford offsets--would follow your example by 
significantly reducing their home energy consumption, will you 
now agree to take the pledge?
    Response. No.

    Question 5. An Inconvenient Truth bombards us with scene 
after scene of devastation from hurricanes, floods, droughts, 
and the like, creating the impression that global warming has 
made the world a more dangerous place. In reality, both death 
rates and overall numbers of deaths related to extreme weather 
have decreased by about 95 percent globally since the 1920s, 
according to Indur Goklany of the U.S. Department of Interior.
    What is there no mention of this in An Inconvenient Truth? 
Is you film designed to inform people, or just frighten them?
    Response. An Inconvenient Truth is designed to inform 
people.

    Question 6. An Inconvenient Truth presents a chart showing 
a sharp increase in recent decades in economic losses and 
insurance payments related to extreme weather. But the film 
does not mention that the data have not been adjusted for 
increases in population, wealth, and the consumer price index. 
This makes a huge difference. For example, in coastal areas in 
Florida, population has increased by about 75 percent since 
1980. So of course there is going to be more weather-related 
damage. There are more people, more homes, and more things in 
harm's way. Research by Roger Pielke Jr. of the University of 
Colorado and others finds that, once weather-related losses are 
adjusted for changes in population, wealth, and the consumer 
price index, there is no upward trend in recent decades.
    Why did you feature a chart of weather-related losses and 
insurance payments that had not been adjusted for changes in 
socio-economic factors? Is your film designed to inform people, 
or just frighten them?
    Response. The data in the film came from Munich Re and 
Swiss Re, two well-respected insurance firms. And, as noted 
before, the film is designed to inform people.

    Question 7. An Inconvenient Truth blames global warming for 
Hurricane Catarina (2004), the first hurricane on record to hit 
Brazil. You say textbooks had to be rewritten because 
scientists had thought it was impossible to have hurricanes in 
the South Atlantic. You imply that global warming caused 
Catarina by warming up the South Atlantic. In fact, according 
to the University Corporation for Atmospheric Research (UCAR), 
the seas were cooler than normal when Catarina formed. However, 
the air was the coldest it had been in 25 years. The air was so 
much colder than the water that it triggered the same kind of 
heat flux from the ocean to the air that can spawn hurricanes 
in warm water.
    In light of this information, is it still your opinion that 
global warming caused Hurricane Catarina?
    Response. It is my opinion that human-induced climate 
change is causing and will continue to cause more intense 
hurricanes.

    Question 8. An Inconvenient Truth claims that 2004 set an 
all time record for tornadoes in the United States. In fact, 
the frequency of tornadoes has not increased; rather our 
capacity to detect smaller tornadoes has increased. National 
Climate Data Center data shows that if we consider just the big 
tornadoes that have been detectable since 1950--Category F-3 or 
larger--there has been a slight downward trend since the 1950s.
    In light of this information, isn't your discussion of 
tornadoes in An Inconvenient Truth misleading? Doesn't it 
present a falsely scary picture of what's actually going on?
    Response. An Inconvenient Truth is designed to present 
well-documented information so that people can draw their own 
conclusions.

    Question 9. An Inconvenient Truth blames global warming for 
the record-breaking, one-day downpour in Mumbai, India, in July 
2005. But scientifically, it is not possible to attribute a 
particular weather event to a gradual increase in average 
global temperatures over several decades. Long-term weather 
records from Mumbai's two weather stations show no increase in 
rainfall in the month of July over the past 45 years.
    In light of this information, isn't your discussion of the 
Mumbai rainfall event misleading? Doesn't it present a falsely 
scary picture of what's actually going on?
    Response. An Inconvenient Truth is designed to present 
well-documented information so that people can draw their own 
conclusions.

    Question 10. An Inconvenient Truth claims there is a new, 
strong emerging consensus that global warming is making 
hurricanes stronger. But recently, 120 hurricane experts at a 
meeting of the World Meteorological Organization stated that 
``no consensus has been reached'' on this issue. There is in 
fact a debate among scientists as to whether global warming 
will increase hurricane strength. For example, Phil Klotzbach 
of the University of Colorado found an increase in hurricane 
strength in the North Atlantic, a decrease in the North 
Pacific, and not much change in the other four hurricane 
basins. A modeling study by Bengtsson, et al. (2006) projects 
no change in the extremes of tropical storms even if sea 
surface temperatures increased by 2 to 3 degrees centigrade, 
and projects a decrease in strong storms in the Atlantic.
    In light of this information, isn't it misleading to say 
that there is a new strong emerging consensus that global 
warming is making hurricanes stronger?

    Question 11. In your documentary An Inconvenient Truth, you 
said, ``And then came Katrina. The consequences were 
horrendous. There is no way to describe them.'' Although you 
never quite say, you rather heavily imply that the devastation 
of Katrina was due to global warming. However, Kerry Emanuel of 
MIT, a leading proponent of the view that global warming is 
making hurricanes stronger, cautioned against linking Katrina 
or other recent Atlantic storms to global warming, saying it 
was more likely due to a natural cycle. And when Katrina made 
landfall, it dropped from a category 5 to a category 3 storm. 
Katrina was the worst natural disaster in U.S. history not 
because of the extra strength it allegedly got from global 
warming, but because the federal government for decades failed 
to build adequate flood defenses for New Orleans.
    In light of this information, isn't it misleading--even 
demagogic--to use the suffering of people in New Orleans as a 
rationale for suppressing fossil energy use?
    Response. No.

    Question 12. An Inconvenient Truth says that scientists 
have observed ``significant and alarming structural changes'' 
in the underside of the West Antarctic Ice Sheet.
    What specifically are those structural changes? What makes 
them significant and alarming? What makes them different from 
ongoing changes that date back to the early Holocene--changes, 
for example, that have reduced the size of the Ross Ice Shelf 
by 2/3rds over the past 8,000 years? Which scientists should we 
contact for further information?
    Response. For more information, I would refer you Dr. Jim 
Hansen at NASA-GISS as well as Dr. Chris Rapley at the British 
Antarctic Survey.

    Question 13. An Inconvenient Truth warns that moulins--
vertical water tunnels formed from melt water at the surface of 
the Greenland Ice Sheet--could cause the ice sheet to break 
apart and slide into the sea. You show a photograph and a 
diagram of moulins that comes from a study by Swally et al. 
(2002), in Science magazine. However, the Science study found 
that moulins accelerate annual glacial flow by few percentage 
points. For example, the moulins might add an extra five meters 
to normal glacial flow of 105 meters of the course of a year.
    How do you go from that--an extra five meters of glacial 
flow--to a scenario in which a structure hundreds of kilometers 
across breaks apart and slides into the sea? Also, are you 
aware of the research by Chylek et al. (2006), which found that 
Greenland in the 1920s to the 1940s was warmer than it was 
during 1995 to 2005? Doesn't this research suggest that there 
were probably more moulins and more glacial acceleration back 
then than we observe today?
    Response. No.

    Question 14. The Greenland ice sheet is thinning at the 
edges and thickening in the interior. If the gains are 
subtracted from the losses, the net volume of ice lost during 
2003 to 2005 was--101 gigatons a year, according to Luthcke et 
al. (2006). That translates to 0.28 mm of sea level rise per 
year, or a little over 1 inch per century.
    Why in An Inconvenient Truth didn't you discuss the actual 
amount of sea level rise attributable to ice mass loss in 
Greenland?
    Response. There is only so much information that can be 
provided in a 90-minute documentary. The point is that rapid 
destabilization of the ice on Greenland and West Antarctica--or 
both--can lead to very large increases in sea level.

    Question 15. In An Inconvenient Truth you warn that half 
the Greenland ice sheet could break off and slide into the sea 
but also that half the Greenland ice sheet could melt. A 
modeling study reviewed by the IPCC (TAR, p/ 678) estimated 
that it would take an additional 5.5C of warming sustained 
``over a thousand years'' to melt half the ice sheet.
    What time span did you have in mind when you warned of 
global warming melting half the Greenland ice sheet?
    Response. Scientists vary with regards to what time span 
one might expect the de-stabilization or break up of the 
Greenland ice sheet.

    Question 16. An Inconvenient Truth shows several before and 
after scenes of coastal areas inundated by 20 feet of sea level 
rise. You count up all the millions of people living in 
Beijing, Shanghai, Calcutta, and Bangladesh who would be 
``displaced,'' ``forced to move,'' or ``have to be evacuated'' 
(An Inconvenient Truth, pp. 204-206). This language implies an 
imminent threat, a catastrophe that could strike in our 
lifetimes or those of our children, if not today then maybe the 
day after tomorrow.
    Is that what you meant to imply--that 20 feet of sea level 
rise is a real possibility not as a cumulative change over 
millennia but as a catastrophe in which people in the present 
generation or maybe the next generation could be ``displaced,'' 
``forced to move,'' or ``have to be evacuated''?
    Response. Because scientists vary with regards to the time 
span one might expect with regards to the de-stabilization or 
break up of some of the larger ice sheets, it is difficult to 
project at what point some the peoples of Bangladesh, for 
example, might be displaced. It could be in our lifetimes, 
those of our children, or the next generation. Worldwide even a 
1 meter increase in sea level would displace an estimated 100 
million climate refugees 17 million of them in Bangladesh.

    Question 17. You conclude An Inconvenient Truth by saying, 
``I believe this is a moral issue.'' I agree it is a moral 
issue, but for different reasons. Much of the world lives in 
energy poverty. About 1.6 billion people have never flipped a 
light switch. About 2.4 billion people still rely on primitive 
biomass--wood, crop waste, and dung--to heat their homes and 
cook their meals. These people breathe indoor air pollution 
that is many times dirtier than the dirtiest air of the world's 
most polluted cities. Millions of women and children in these 
countries die every year from indoor air pollution--induced 
respiratory disease. Backbreaking labor is not a metaphor for 
people in this condition but a daily reality. What these folks 
desperately need is access to affordable energy. The most 
affordable energy on this planet, now and for the policy 
relevant future is carbon-based energy. But your goal is to 
decarbonize the world's energy systems.
    An Inconvenient Truth features--and I believe exaggerates--
the risks of global warming. Why does it say nothing about the 
risks of global warming policy? Is it moral to put an energy-
starved world on an energy diet?
    Response. I discuss the topics of poverty and inequity in 
the longer version of my slideshow. Most studies show that the 
poor of the world would be the hardest hit victims of global 
warming.

    Question 18. For the 15 years between 1990 and 2005, we 
didn't license a single new coal-fired power plant. China is 
building one every 3 days, and will become the world's largest 
emitter of CO<INF>2</INF> within the year. Do you believe that 
China and other developing countries should be left free to 
dramatically increase their rate of greenhouse gas emissions 
while we spend tens or even hundreds of billions of dollars per 
year to reduce greenhouse gases, or do you favor mandatory 
emission restrictions on China?
    If you do not favor mandatory restrictions on China, please 
answer the following question:
    CNN quoted a statement by you about the Kyoto Protocol on 
December 11th, 1997 saying that:
    ``As we said from the very beginning, we will not submit 
this agreement for ratification until developing nations 
participate in this effort ``This is a global problem that will 
require a global solution.''
    You can't have it both ways. Were you wrong in refusing to 
allow the Senate to vote on the Kyoto Protocol or do you stand 
by the idea that the U.S. shouldn't commit to damaging carbon 
caps as China's emissions explode?
    Response. I favor the inclusion of China in a successor 
agreement to Kyoto.

    Question 19. NCAR/UCAR scientist, Dr. Thomas Wigley, 
calculated during your administration how little the Kyoto 
Protocol would accomplish. Only 0.07 degrees Celsius over 50 
years, which is negligible. Is this why you were unwilling to 
send the treaty to the Senate for ratification?
    Response. I support the negotiation of a successor 
agreement to Kyoto, by 2010, and the submission of such an 
agreement to the Senate for ratification.

    Question 20. You believe that global warming is a moral 
issue. According to the HUD website, the poor spend five times 
as much of their budget on energy costs than the average 
consumer. How do you morally justify putting in place a program 
to raise energy costs that would hurt the poor, elderly, and 
small businesses in this country the most while providing 
almost no environmental benefits?
    Response. As I testified before your committee, I believe 
that any domestic legislation should include set-asides so that 
those most vulnerable to higher energy costs will be protected 
from economic harm. Also, see answer 17.

    Senator. Boxer.  Thank you very much, Senator. Speaking for 
myself, I found your testimony very moving and very important.
    I want to say for the benefit of all members, we have every 
single Democrat on this Committee as present today. Mr. Vice 
President----
    Senator. Inhofe.  Obama is not here.
    Senator. Boxer.  Obama is no longer on this Committee.
    Senator. Inhofe.  Okay.
    Senator. Boxer.  No. But every single Democrat is here who 
is on this Committee today. I just want to make a note of that 
because, let me put it this way, it is rare that we have that 
because of everybody's schedules.
    So as a result of that, I am going to give up my question 
time and save it for last. I am very worried we will run out of 
time, and I have such a great committee on both sides. So I am 
going to do that. I am going to just not question.
    Here is what we are going to do. I am going to lead it off 
with Senator Inhofe, who has 12 minutes. It is going to go back 
and forth, seniority on your side. On our side, I just want to 
tell people when they are going to be called on: Klobuchar, 
Sanders, Lautenberg, Lieberman, Baucus, Clinton, Whitehouse, 
Carper, Cardin and Boxer. All right?
    Senator Inhofe.
    Senator. Inhofe.  Thank you, Madam Chairman.
    Senator Gore, I enjoyed it very much, a great opening 
statement.
    Mr. Gore.  Thank you.
    Senator. Inhofe.  I don't agree with it, but I agree with 
your history. It was very good.
    What I am going to do is, since she has allowed me to go 
three minutes over, I am going to try to make all of this in a 
very short period of time. I have structured my questions so 
they are yes or no questions, and they don't require a lot of 
elaboration. So let me start off with four, and these should be 
pretty easy. I know the answer because I have heard some quotes 
from you that lead me to believe what the answer is.
    First of all, yes or no, do you believe that human-caused 
global warming is a moral, ethical and spiritual issue 
affecting our survival?
    Mr. Gore.  Yes, I do.
    Senator. Inhofe.  Yes or no, do you believe that reducing 
fossil fuel-based energy usage will lead to lower greenhouse 
gas emissions?
    Mr. Gore.  It depends on what the substitutes are, but 
basically yes. I think that we can capture and sequester the 
carbon and continue using carbon-based fuels.
    Senator. Inhofe.  Very good. And yes or no, do you believe 
that home energy use is a key component, not the only 
component, but a key component to overall energy use?
    Mr. Gore.  I believe that buildings as well as cars and 
trucks and factories are definitely a part of the problem, yes.
    Senator. Isakson.  All right. I would like to put up the 
little pledge thing here. I am going to ask you if you would 
like to commit here today. Do you know how many hundreds of 
thousands of fans you have out there that would like to follow 
your lead? And this pledge merely says, as you can read up 
there, that you are agreeing to consume no more energy in your 
residence than the average American household by one year from 
today. Not right now. You have a whole year to try to do this.
    Now, the one thing I would like to have you not use in 
response to this question, which is a yes or no question, is 
the various gimmicks. I have something I want to submit for the 
record, Madam Chairman, that talks about the effects. The 
offsets and the credits are gimmicks used by the wealthy so 
they don't have to change their lifestyles. I have an article 
that is last Sunday's United Kingdom Times I would like to 
submit for the record at this time.
    Senator. Boxer.  You may.
    [The referenced document follows:]

    From The Sunday Times

    March 11, 2007

    Offsetting your carbon footprint takes decades

    Jonathan Leake, Environment Editor

    SCHEMES used by environmentally conscious consumers to cut 
their ``carbon footprint'' could take up to a century to 
deliver the promised benefits, a study has suggested.
    Researchers found it takes that length of time for ``carbon 
offsetting'' which often involves the planting of trees in the 
developing world to absorb the greenhouse gases emitted by a 
single flight.
    Dozens of fortunes have been made in recent years by 
entrepreneurs offering people and businesses the chance to 
neutralise their carbon emissions for a fee.
    The new research, carried out by scientists at the Tyndall 
Centre, based at the University of East Anglia, and Sweden's 
Lund University, suggests that such schemes may, in fact, do 
little more than salve the consciences of those paying for 
them.
    ``What we are seeing here is the emergence of a new and 
completely unregulated financial market,'' said Lund's 
Professor Stefan Gossling, who led the study.
    ``These schemes may eventually recapture the carbon people 
emit now but will only finish the job after most of them have 
died. That is too long.''
    The schemes studied by Gossling included one offered by 
British Airways to its passengers through Climate Care, a 
British carbon offsetting company.
    It found that an offset bought through the scheme would 
take about 100 years to recapture the carbon emitted by a 
flight.
    This is because Climate Care includes forestry in its 
offsetting portfolio, meaning that carbon emitted can be 
recaptured only as fast as a tree can grow.
    The research coincides with a sharp rise in the political 
temperature over climate change. Last week EU leaders agreed to 
cut European carbon emissions by 20 percent from 1990 levels by 
2020.
    The voluntary carbon offsetting market has sprung from the 
same global concern over carbon emissions.
    There are now dozens of companies charging fees to help 
people and organisations deal with their carbon emissions. One 
of the richest is Climate Change Capital, a merchant bank 
specialising in low-carbon investments, which controls funds of 
more than <brit-pound>500m and has made millionaires of its 
founders, James Cameron and Lionel Fretz.
    The firm specialises in big industrial projects. Most 
offsetting companies prefer, however, to support smaller 
energy-efficiency projects and renewable energy schemes.
    A favourite is to buy low-energy lightbulbs for 
distribution in developing countries. Such schemes can take 
years to recover the carbon emitted by, say, a flight, but when 
forestry is the chosen offset mechanism this can stretch into 
decades.
    ``When companies offer to offset a single flight over a 
period of 100 years then the schemes lose credibility,'' said 
Gossling. ``How can anyone predict the fate of a forest? A 
hundred years from now it could burn down and all that carbon 
would be released.''
    Some forestry projects have ended in spectacular failures. 
Coldplay, the rock group, sponsored 10,000 mango trees in 
southern India to offset the environmental impact of its 2002 
album, A Rush of Blood to the Head.
    By last year, however, the trees, supplied by Future 
Forests, now The CarbonNeutral Company, had withered and died.
    Jonathan Shopley, chief executive of The CarbonNeutral 
Company, said the firm had since moved out of forestry and in 
to schemes such as wind farms and low-energy lighting. ``Any 
offsets taken out with us in future will recover the relevant 
carbon emissions within 4 years,'' he said.
    The turnover of the CarbonNeutral Company has risen sharply 
to <brit-pound>4m a year and it has just signed up Silverjet, a 
new air-line dedicated to business class passengers. It charges 
an average <brit-pound>999 for a return flight between New York 
and London of which <brit-pound>11 goes toward offsetting each 
passenger's carbon emissions.
    David Wellington, managing director of Climate Care, said: 
``Many of the criticisms raised over offsetting were valid. 
This is a young industry and it is still settling down, but the 
standards are improving very fast. For example, we have already 
moved out of forestry into renewable energy projects that 
reduce the time over which offsets take effect.''
    But others believe that carbon offsetting is deeply flawed. 
Dieter Helm, professor of energy policy at Oxford University, 
said it was little more than a mechanism to allow rich 
westerners to ease their consciences.
    ``What we are really doing is paying poor people to reduce 
their carbon emissions so that we can maintain our luxury 
lifestyles. If we really want to live sustainably we are going 
to have to accept the knocks and give up things like flying. In 
the end they are unsustainable,'' he said.

    Senator. Inhofe.  All right. What is your answer?
    Mr. Gore.  Well, first of all, Senator, thank you so much 
for your question.
    Senator. Inhofe.  Sure.
    [Laughter.]
    Senator. Inhofe.  I notice Tipper didn't say thank you for 
the question.
    Mr. Gore.  Oh, I am sure she would.
    [Laughter.]
    Mr. Gore.  You know, one of the other recommendations that 
I would have is that you also set standards for green energy 
produced by utilities. One reason I say that in response to 
what you are saying here is that that is what we purchase. We 
pay more for it because it is still relatively uncommon.
    Senator. Inhofe.  Senator Gore.
    Mr. Gore.  If I could just----
    Senator. Inhofe.  Well, you can't.
    Senator. Boxer.  You have asked the Senator an important 
question. He is answering it. Give him a minute or so to 
answer.
    Senator. Inhofe.  All right. If you could just stop the 
clock during this time?
    Senator. Boxer.  No. I am not going to stop the clock. He 
has a minute to answer. How can you ask the question and not 
give the man a minute to answer? Please.
    Mr. Gore.  We purchase wind energy and other green energy 
that does not produce carbon dioxide. That does cost a little 
more now, and that is one of the reasons why it costs a little 
more. We are also in the process of renovating an old home. We 
live not far from where Lamar and Honey Alexander live, and --
--
    Senator. Inhofe.  Senator Gore, you have had so much more 
time that I am going to have to----
    Mr. Gore.  Can I make one other point? Because a lot of 
communities actually have laws preventing the installation of 
solar photovoltaic----
    Senator. Inhofe.  So I assume the answer is no. Let's go to 
the next question.
    Mr. Gore  And if I could continue, I don't believe that 
there should be a Federal provision that overrides any local 
restrictions on the use----
    Senator. Inhofe.  All right. Senator Gore, I am very sorry. 
I don't want to be rude, but from now on I am going to ask you 
to respond for the record in writing, since you are not going 
to respond----
    Mr. Gore  Well, if I choose to respond to you verbally 
here, I hope that will be okay, too.
    Senator. Inhofe.  If it is a very brief response.
    All right. I am sure you read the article that quoted the 
scientists that I mentioned in my opening statement, about 
their criticizing you for being too alarmist and hurting your 
own cause. Now, I will ask you to respond in writing for that 
one, because that would be a very long response, I am afraid.
    It seems that everybody in the media has joined the chorus 
----
    Mr. Gore  May I respond?
    Senator Boxer. Excuse me. Senator Inhofe, we will freeze 
the time for a minute.
    Senator Inhofe. Yes, take your time. We are freezing the 
time.
    Senator Boxer. We are freezing the time. Just for a minute, 
I want to talk to you a minute please.
    [Laughter.]
    Senator Inhofe. Would you agree to let the Vice President 
answer your questions, and then if you want an extra few 
minutes at the end, I am happy to give it to you. But we are 
not going to get anywhere. You are asking questions.
    Senator Inhofe. Why don't we do this? At the end, you can 
have as much time as you want to answer all the questions.
    Senator Boxer. No, that isn't the rule. You are not making 
the rules. You used to when you did this. You don't do this 
anymore.
    [Laughter.]
    Senator Boxer. Elections have consequences.
    [Laughter.]
    [Applause.]
    Senator Boxer. Elections have consequences, so I make the 
rules. But here is the thing, I want you to get your questions 
answered. I promised to give you an additional three minutes of 
time, but if you will allow the Chair, if I believe the Vice 
President is wandering into another area, I will just say that 
quietly and he will I know move on. He knows the rules here.
    Senator Inhofe. You know the rules here. Let me read to you 
what you said to Mr. Johnson when he was before this Committee. 
You said, ``The fact is, I don't need to talk now. I don't want 
to talk anymore.''
    Now, I am not going to be rude. I am not going to do that, 
but that is what you did. I only want to be able to get through 
my time. I can't do it if you filibuster. All right?
    Senator Boxer. Go ahead.
    Senator Inhofe. Now, it seems that everything is blamed on 
global warming. You talked about the fires in Oklahoma. Last 
summer, we had a heat wave and everyone said, oh, that is proof 
that it is global warming. Then we had a mild December, oh, 
that is proof that global warming is taking place.
    Now, I wonder, how come you guys never seem to notice it 
when it gets cold? If you put up chart number two there. This 
is for your benefit, Senator Clinton. This is of Buffalo, New 
York. I have in my hand here the document from the National 
Oceanic and Atmospheric Administration. They set records all 
over America in January, with 183 cold records; 183 of them. 
This is a new record, all over America. That was all in one 
month.
    I would just have to say that, for our sake in Oklahoma, we 
had three days that were the coldest days in history. Where is 
global warming when you really need it?
    Now, what I would like to do is also be aware that the 
debate that took place last week in New York, and I would like 
to have a brief thought about this. This is when the prominent 
group of five scientists and one doctor on each side of the 
issue had a chance to talk, to survey their crowd. It was a 
very large crowd, and 57.3 percent of the audience agreed with 
you that global warming is a crisis. About 29 percent said it 
wasn't. After the debate, it completely turned around, and it 
was 46 percent to 42 percent. Now, I think that is all the more 
reason why there should be a lot more discussion on this. It 
was a huge shift.
    Now, on science. You talked about science. It is very 
interesting that when people don't want to talk about science 
in a debate format in terms of how many scientists are on this 
side; how many on this side. What happens is you just say it is 
settled.
    I mentioned in my opening statement Claude Allegre. He is 
from France, and Nir Shariv from Israel, Reid Bryson. These are 
all people who were solidly on your side of the issue up until 
recently, and now they are not alarmists anymore. All three of 
them have come over to the other side.
    Now, if you put up chart number three, there are literally 
hundreds of scientists on this chart. All of these scientists 
disagree with you. In addition to that, I am sure you have 
heard this many times before because people are quite upset 
that the 60 scientists were advising the Prime Minister of 
Canada 10 years ago said that we want you to join Kyoto, and so 
they did. Those same 60 scientists now are petitioning Prime 
Minister Harper of Canada to get out of the Kyoto Treaty. They 
are saying, and this is a direct quote, ``If back in the mid-
1990s we knew what we know today about climate, Kyoto would 
almost certainly not exist because we would have concluded that 
it wasn't necessary.''
    And the last chart that I will put up is one that everyone 
knows. I think some of my colleagues may not be familiar with 
this person. His name is Richard Lindzen. He is the Sloan 
Professor of Atmospheric Science at MIT. He wrote an op-ed 
piece for The Wall Street Journal. I will read it as you read 
it. It is not very flattering to you, Senator Gore, but this is 
what he said: ``A general characteristic of Mr. Gore's approach 
is to assiduously ignore the fact that the Earth and its 
climate are dynamic. They are always changing, even without 
external forces. To treat all change as something to fear is 
bad enough. To do so in order to exploit that fear is much 
worse.''
    So we have thousands of meteorologists, geologists, 
physicists, astrophysicists, climatologists, scientists who 
disagree with you. Are they all wrong and you are right?
    Mr. Gore  Senator, thank you.
    I am sitting here trying to think what I could do or say 
that might make it possible to reach out to you. I am serious 
about this. We have a mutual friend named Doug Coe. I would 
love to have breakfast with you sometime with Doug, just the 
three of us, and talk with you without the cameras and without 
the lights, and tell you why I feel so strongly about this.
    Senator. Inhofe.  Well, I think you have told us in your 
opening statement, and it is very eloquent.
    Mr. Gore  But anyway, you know, if there was a way that I 
could talk with you that would make a difference to you, I 
would like to do it.
    But let me respond to your question. The National Academy 
of Sciences here in this country and in the 16 largest or most 
developed countries in the world, the ones that have respected 
large national academies of science, all of them unanimously 
have expressed agreement with the consensus that I stated to 
you.
    The Intergovernmental Panel on Climate Change that has had 
its fourth unanimous report in 15 years agrees with the 
consensus that I stated to you.
    Senator. Inhofe.  Okay. Senator Gore? My time has almost 
expired completely. Are you aware of that?
    Mr. Gore  If I could complete my answer.
    Senator. Inhofe.  Well, if you do, then my time has 
expired. Are you aware of that?
    Mr. Gore  Well, I can't help that, because you went on for 
a long time. But I would like to----
    Senator. Inhofe.  No, I have 15 minutes. You had 30 
minutes. I had 15 minutes. You have to let me have my 15 
minutes, Senator Gore.
    Mr. Gore.  If I could just complete my response.
    Senator. Inhofe.  You have already done it. The National 
Academy of Sciences----
    Mr. Gore.  I actually haven't.
    Senator. Boxer.  Senator, I will stop the clock and allow 
Senator Gore to complete, please, and then we will go back to 
you.
    Senator. Inhofe.  Good. Thank you.
    Senator. Boxer.  Okay. Go ahead.
    Mr. Gore.  I will just give you one other example. The 
University of California did a very well respected, well 
picked-over peer-reviewed study. The team was led by Professor 
Naomi Oreskes. They reviewed every single peer-reviewed 
scientific journal article for the previous 10 years on this 
topic. They took a very large sample of almost 10 percent of 
them, 928. About 25 percent of the articles did not deal with 
the central point of the consensus, some arcane matter. But of 
those that dealt with the main consensus, the number that 
disagreed with the consensus was zero. This is a very well 
established and very strong scientific consensus. It is not me 
saying it. It is what the scientific community is saying.
    Senator. Inhofe.  Okay. My response to that is that, first 
of all, every scientist that I named up here is a member of the 
National Academy of Sciences. They disagree with you. They 
disagreed with that statement. But the National Academy of 
Sciences back in 1975, they had a very interesting observation. 
They said, however, asserting a finite possibility that a 
serious worldwide cooling could befall the Earth within the 
next 100 years, exactly what they are saying now, except at 
that time it was cooling.
    Mr. Gore.  Could I comment on that?
    Senator. Inhofe.  With all respect, Senator Gore, we can't 
do that. You know that.
    I wanted to keep going and discuss China, but it is 
virtually impossible to do now because we have used up too much 
time. I will ask you to do this----
    Senator. Sanders.  Madam Chair, I would ask unanimous 
consent to give Mr. Inhofe another two minutes so that Mr. Gore 
could respond.
    Senator. Inhofe.  Oh, why don't you give it to Mr. Gore to 
respond?
    Senator. Sanders.  You get two, and Mr. Gore gets two. I 
would ask unanimous consent.
    Senator. Inhofe.  Oh, that is great.
    Senator. Boxer.  I am going to object, because here is the 
thing. What I am going to do is, and Senator, you will get your 
chance. Please. If you would just trust me for five minutes, 
you will be fine. He is going to lay down the rest of his 
questions in moments, and then I am going to give the Vice 
President the time he needs to respond, within reason. Okay? 
And then I am going to go Senator Klobuchar, and then we are 
going to try to get control of this hearing.
    Senator Inhofe, was that your last question?
    Senator. Inhofe.  Oh, no.
    Senator. Boxer.  You have one minute, then, to go ahead and 
ask your questions. Why don't you lay them all down, and then 
he will answer them. Go ahead. You have one minute now.
    Senator. Inhofe.  One minute for my last question? Well, I 
already had three minutes.
    Senator. Boxer.  Well, I am giving you another minute.
    Senator. Inhofe.  Okay.
    Senator. Boxer.  Go ahead.
    Senator. Inhofe.  I will skip all the questions. I had 15 
minutes of questions, and Senator Gore, I agree. Let's get 
together with Doug Coe and talk about it privately. But this is 
a public forum. People have to know. I have listed all the 
scientists who disagree with you, and you did not respond to 
that question.
    So I would just say that I hope people understand what the 
issue is, because a lot of people don't know the issue. A lot 
of people think the issue is global warming taking place. The 
issue is, is it manmade gases, anthropogenic gases, 
CO<INF>2</INF>. That is the issue. Unfortunately, I think it is 
more of a money response than anything else. We have a lot of 
people who are pouring money into these things, George Soros, 
Michael Moore, Richard Branson and all of that.
    But what I am going to do in the last times since my time 
has expired, I am going to ask you on your film, the last frame 
on your film, and it is kind of interesting because yesterday I 
ran into a parent of a student at a school in Maryland, that 
said that her students in an elementary school were watching 
your movie under instructions once every month. The last frame 
in that movie was, and would you put that frame up? You are 
asking, and you have asked people all over America: Are you 
ready to change your way of life? Are you ready to change the 
way you live?
    I would have to ask you that same question, because we 
started my term on would you take a pledge to do that. I think 
the answer to that is no. But in terms of changing the way you 
live, I think it is very difficult for you to ask other people 
to do it unless you are willing to do it. Are you willing to do 
it?
    Mr. Gore.  We live a carbon-neutral life, Senator, and both 
of my businesses are carbon-neutral. We buy green energy. We do 
not contribute to the problem that I am joining with others to 
try to help solve. We pay more for clean energy and I think 
that utilities ought to provide more green energy that doesn't 
produce CO<INF>2</INF>.
    We are in the midst of installing solar panels. Again, I 
think that we ought to have a law that says communities and 
localities ought not be able to prevent that. I have never made 
that public, by the way. The community where I live, it is a 
city within a city. I asked them to change it and they said we 
will. It just takes time.
    So these kinds of things are what people are going through 
all over this country. They are buying the new light bulbs. 
They are putting in more insulation. People are changing. 
People are changing. The American people are ready to help 
solve this problem, but we have to have legislation that takes 
away the right to pollute without any accountability or without 
paying a price for it, because when we have cap and trade, when 
we have laws that allow us to use the market in our favor, then 
those of us who are part of the solution rather than part of 
the problem will be able to leverage what we are doing.
    I will respond to the other questions for the record, out 
of courtesy to the remaining Senators.
    Senator. Boxer.  Thank you.
    Senator Klobuchar.
    Senator. Klobuchar.  Vice President Gore, welcome to our 
Committee.
    Mr. Gore.  Thank you.
    Senator. Klobuchar.  It is not every day that our Committee 
has an Academy Award winner testifying. More often, our 
witnesses have awards from important, but not so glamorous 
organizations like the American Chemical Society or the 
American Society of Civil Engineers. So we are very pleased 
that you brought all your friends here so that there can be 
more focus on this important issue.
    I can tell you that in Minnesota, contrary to what Senator 
Inhofe has been talking about, we believe in science. We 
brought the world the Post-it note and the pacemaker, but it is 
more than science now. I can tell you that there are hunters in 
Hibbing, Minnesota that wear orange caps that care about this 
issue because they have seen the change to our wetland.
    There is a couple out on Leech Lake who care about this 
issue because they have seen how long it takes for them to get 
their fishhouse out to go ice fishing. There is a City Council 
in Lanesboro, Minnesota who decided to change their light bulbs 
because they can see the effects of global warming. And there 
is a little eight year old in Roseville, Minnesota who came up 
to me at an event with tears in her eyes because she had read 
about the penguins dying, because they were drowning trying to 
get food.
    So this isn't just science. It is real people in the real 
world that care about this issue.
    In our State, we actually passed one of the most aggressive 
renewable electricity standards, 25 by 25, just a month ago. By 
the year 2025, the State's energy companies are required to 
generate 25 percent of their electricity from renewable sources 
such as wind and solar and other forms of biomass. Energy is 
held to a higher standard, with 30 percent by 2020.
    The reason I bring this up is that this was adopted, as 
Senator Alexander was talking about, with bipartisan support. 
It is a Democrat State House and State Senate, but the vote was 
123 to 10 in the State House, 61 to 4 in the State Senate, and 
it was signed into law by a Republican Governor. So that is 
what you are talking about when you talk about bipartisan 
solutions.
    I wanted to focus on the last question a little bit about 
those solutions. You were, when you were here, you were widely 
regarded as a pragmatist. Today, you were talking about the 
importance of using the Omar Bradley quote of guiding ourselves 
not just by the lights of each passing ship, but by the stars.
    As you have seen today, there is some opposition to change 
in this area by certain quarters in the United States Senate. 
So my questions are about what thought you have given to what 
needs to be done to get this legislation passed quickly.
    Specifically, have you thought about what first steps need 
to be taken so we can immediately do something and immediately 
respond to your call for action?
    Mr. Gore.  First of all, Senator Klobuchar, thank you so 
much for your comments. I was in Minnesota during your 
campaign. I was so impressed with the prominence of this issue 
in the campaign dialogue, and so impressed with the people and 
leaders of your State for truly making it a bipartisan issue. I 
think it is the wave of the future for our whole country.
    This used to be a bipartisan issue. When Senator Baker was 
the Ranking Minority Member for Ed Muskie on this Committee, 
they passed the Clean Air Act and Clean Water Act, one of them 
unanimously, as I recall. I think it can be that way again.
    I truly believe that the first step ought to be a freeze. I 
think that the support is growing out there so rapidly. A cap 
and trade system that starts with a freeze can let us use the 
economy in our favor. I support the Sanders-Boxer bill. I think 
that is an excellent piece of legislation. I don't consider 
myself expert on all the details of the different provisions of 
all the legislation that has been introduced, but I have taken 
note of that legislation. I think it is an excellent beginning 
fo this.
    Each of the recommendations that I made to you are ones 
that I think are practical as well as aiming high. I think the 
cost of not solving this crisis would be devastating for our 
economy as well as to the environment. The so-called Stern 
Report in the United Kingdom made that point very forcefully. 
Although there are arguments about the so-called discount rate 
that he uses, I think it is an excellent report.
    So I really think that it is pragmatic, as well as 
idealistic, to take this bull by the horns and really solve 
this crisis.
    Mr. Klobuchar.  You brought up the issue of the economy. 
How about technology? There is an argument that if you don't do 
anything about it, if we don't develop the technology, other 
countries will, and we will fall behind economically.
    Mr. Gore.  I think that is definitely the case. Just look 
at the crisis that our auto industry is in right now. It may 
not be fair, but the apocryphal saying was years ago when the 
Clean Air Act was passed, every Japanese company hired 100 new 
engineers and every American company hired 100 new lawyers. As 
I say, that may not be fair, but if you look at the effective 
way that a company like Toyota has made more environmentally 
efficient cars. There are a lot of reasons for this. Health 
care needs to be solved also. That is a problem for our auto 
companies.
    But one of the principal reasons why our auto companies are 
in trouble is that they got the tradeoff, the so-called 
tradeoff between the economy and the environment wrong, and 
they have all these gas guzzlers that they can't sell because 
people don't want to buy them. It is not as if it was 
impossible to predict that oil prices might go up at some point 
in the future. We get it from the most unstable parts of the 
world.
    So what we really have is a carbon crisis. We borrow all 
this money from China to buy all this oil from unstable 
countries, and burn it in ways that destroy the habitability of 
the planet. We need to change every bit of that pattern. In 
changing it, we will become more competitive and allow our 
companies to get out there on the cutting edge and develop the 
new technologies that you are focused on that will create more 
good jobs.
    Senator. Boxer.  Thank you very much, Senator Klobuchar.
    Senator Warner.
    Senator. Warner.  Thank you, Madam Chairman.
    Mr. Vice President, I welcome you and Mrs. Gore. I was 
privileged to serve with you in this institution. We served 
together on the Armed Services Committee, and you, in a 
dignified way, you earned the respect of this institution, and 
I am privileged to try today to return that respect and dignity 
to both of you, sir, here in the Senate.
    I also thank you for reference to my modest little 
contribution to World War II. I would acknowledge that my good 
friend down here, Senator Lautenberg, also served in that 
conflict with great distinction in Europe.
    Mr. Gore.  Pardon me for the omission.
    Senator. Warner.  You talked about the Battle of 
Thermopylae. I remember reading about it quite well. I have not 
seen the film, but intend to do so. You may recall that 
overwhelming force sent a message to the brave 300: Surrender, 
or we will darken the skies with arrows. And the reply came 
back: We will not surrender. We will fight in the shade.
    Now, I mention that because you have thrown down a very 
tough challenge today to the Congress. I am prepared to take 
some risks and fight with you and our Chairman, but we are not 
going to fight in the shade, because we need a lot of daylight 
brought on this issue. I would be the first to say that I have 
a lot to learn. I am proceeding to do that with a great deal of 
pleasure, to forge ahead in a new area.
    But I want to talk about the first issue that concerns me. 
As long as we are talking about political slogans, you remember 
the slogan that we worked on in arms control: trust, but 
verify. Well, I want to trust as much as I can, your position, 
and those that advocate this, but we need some verification. 
And that first verification comes as we study this problem, on 
whether or not there is in existence today the technology to 
make the corrections that you advocate.
    Mr. Gore.  Well, that is an excellent and thoughtful 
question. Thank you for your kind words in preface to the 
question.
    We have the technologies we need to begin addressing the 
crisis. Two economists at Princeton, Professors Socolow and 
Pacala published an immensely influential study that is based 
on what they call the wedges analysis. The reason I use that 
jargon is that it directly addresses the question you are 
asking.
    We can start with what we now have available, and begin 
making reductions, even as we continue the research and 
development into new waves of technology that will make the 
solutions steadily more accessible and easier.
    For example, just to use one example, everybody here has 
talked about ethanol and biofuels. The present generation of 
ethanol has some controversy associated with it. We all know 
that. If the energy use of the agriculture used to produce it 
is carefully handled, it can be a net positive addition. I am 
for it. But within less than five years, we will have a second 
generation of ethanol products available to us known as, I 
believe it is enzymatic hydrolysis. Some people call it 
cellulosic ethanol, lignocellulosic, which is a biodiesel form. 
Again, this is above my pay grade also, but my point is this: 
We can start now with what we know to do; begin putting the 
infrastructure and the laws in place; wean ourselves off as 
much of the foreign oil as we are using; and reduce the 
CO<INF>2</INF> associated with it. And then plan ahead so that 
within less than five years, we can roll into this second 
generation, which is infinitely better. There are comparable 
second generation technologies all along the road, including 
photovoltaics, where a new generation there will soon become 
available.
    Senator. Warner. Let me bring in another point here, and 
that is we are in a one world market today.
    Mr. Gore.  Right.
    Senator. Warner.  And when we are sleeping, the rest of the 
world is up trying to figure out how to compete with us, and 
frankly take away our jobs. Too many jobs are leaving our 
shores. I am just concerned about China and India. They are 
major polluters today and projections are they will even be 
bigger in the years to come.
    How do we persuade them to assume the burdens that we will 
have to take to meet your challenge, and that we go together as 
partners? We simply can't be followers to China's growing 
economic capabilities, and military, I might add.
    Mr. Gore.  Yes, Senator, it is a global problem and it has 
to be solved with a global strategy. The military historians 
tell us that battles and conflicts fall naturally into three 
categories: local battles, regional wars, and the rare, but all 
important global or strategic war, like World War II.
    Environmental issues are much the same. Much of what we 
discuss are local problems, air pollution, water pollution. 
Acid rain is an example of a regional problem, the dead zone in 
the Gulf of Mexico coming out of the mouth of the Mississippi 
River draining the Midwest. But this is the rare, but all 
important global or strategic problem. Its aspect is in the 
global dimension, and every nation has to be a part of the 
solution.
    Now, that is a challenge, and every global treaty since the 
end of World War II has had the same binary architecture. The 
wealthier per capita countries are in one category, and the 
other countries, even if they are strong, their per capita 
incomes are only a fraction of ours, and they band together. 
And every treaty has recognized that distinction. We might not 
want that, but as a practical matter that is the world we have 
to deal with.
    How do we get China and India, falling in that second 
category, even though China might arguably bridge those 
categories now, they are the Saudi Arabia of manufacturing, 
after all. Their emissions will soon exceed ours. But how do we 
get them involved?
    Two steps. Number one, when we lead, we greatly improve the 
odds that they will be a part of it. Number two, there is 
excellent evidence that they themselves have their own reasons 
for joining in solving this crisis. President Hu Jintao and 
Premier Wu, both have made speeches within the last 10 days on 
this issue. Words alone don't count for much, but they have 
made this goal coequal with GDP in their new five year plan.
    They now face a situation where some months of the year, 
the Yellow River no longer reaches the sea. The Yangtze River, 
much larger, is still a problem for them. They have a water 
crisis. The Tibetan Plateau is melting. The sandstorms off the 
Gobi are getting stronger. They are worried that their coming-
out party at the Olympics is going to be spoiled by the 
environment. They are facing demonstrations with the start to 
construction of new coal-fired powerplants now. Not that that 
is a problem over there, but it actually is beginning to be a 
problem.
    So since they have their own reasons for trying to address 
this, the odds increase that if we provide the leadership and 
find creative ways to bridge out across that category, I think 
that they will join.
    Senator. Boxer.  Thank you, Senator Warner.
    Senator. Warner.  My time is up.
    Senator. Boxer.  I am sorry. That is so fascinating, but we 
need to move on.
    Senator Sanders.
    Senator. Sanders.  Thank you, Madam Chair.
    Mr. Vice President, thank you very much for being here. And 
thank you not only for focusing our country and much of the 
world's attention on this planetary crisis, but you have done 
something else. I think it is no secret that a lot of young 
people are disenchanted with the political process, are 
alienated from it. I think you have given that generation the 
hope that maybe they also can become a great generation, and 
break our dependency on fossil fuel and move us toward energy 
efficiency and sustainable energy.
    I think the hearts of a lot of young people are beating a 
little bit faster today because of your work, and I want to 
thank you very much for that. On behalf of Senator Boxer and 
myself, we want to thank you for your support of our 
legislation, which we think is the most comprehensive that has 
been introduced in the Congress.
    Mr. Vice President, I want to pick up on a point that 
Senator Klobuchar raised a moment ago. We have heard from some 
people who disagree with us philosophically that if we move 
forward aggressively in reversing global warming, that it will 
be a terrible, terrible thing for the economy. That is what 
some people say.
    Some of us believe, in fact, that if we are aggressive in 
terms of energy efficiency, if we reverse the absurdity of no 
longer having the United States being the leader in solar 
energy. We are way behind where other countries are; no longer 
being a leader in terms of wind technology, or many of the 
other sustainable energies that are out there; that in fact if 
we focus on these issues, if we bring labor and business 
together, that in fact we could create millions of good paying 
jobs as we not only reverse global warming, but we clean up the 
environment, which is causing so much illness and other 
problems.
    Could you speak briefly on what you see as the economic 
plus, the advantages of moving toward a green revolution and 
energy efficiency and sustainable energy?
    Mr. Gore.  Thank you, Senator Sanders.
    I agree with you first of all that the young generation is 
getting very deeply involved with this. I remember when I was a 
teenager and the Civil Rights revolution became a moral issue. 
And when my generation asked our elders to explain why the 
segregation wasn't immoral, and when they couldn't answer, that 
is when the laws changed. I think that this young generation is 
getting deeply involved in this as a moral issue.
    Your fellow Vermonter, Bill McKibben, has been among those 
who have really tapped into that. My hat is off to him.
    On the economic benefits of attacking this problem, Amory 
Lovins has testified before this Committee. He is one of these 
guys that is so smart you think you are drinking from two fire 
hoses at the same time when he talks. He has been right about a 
lot of things for 30 years, but he has so many great ideas. He 
told me one time, he said, you know, Al, the problem with the 
debate over the economic impact of the solutions is that you 
have the sign wrong. I thought, this guy is so smart he is 
talking about trigonometry, which I can't talk about. I thought 
he was talking about cosines or something. No, he was talking 
about plus sign and minus sign. That was a relief to me.
    What he meant was, there are all kinds of solutions to the 
climate crisis that people think have a minus sign, when 
actually they have a plus sign. Take the insulation and 
building improvements I was talking about earlier and proposing 
this Connie Mae. If we made those expenditures, we would 
sharply reduce CO<INF>2</INF>. There is more CO<INF>2</INF> 
that comes from buildings than comes from cars and trucks.
    Would that hurt our economy? No. It would greatly 
strengthen our economy. It would create jobs, number one. And 
it would sharply reduce our annual expenditure for energy that 
goes purely to waste. So that is a plus sign, not a minus sign. 
If we develop the new technologies that Senator Klobuchar is 
focused on, and we give our auto industry, just to take that 
one example, the ability to recapture some of the markets they 
have lost to the hybrids from Japan, is that minus sign? No. It 
creates jobs. It adds to our economic strength. And there are 
literally thousands of similar examples.
    Now, there are also some minus signs out there, and we have 
to pick and choose carefully and keep our wits about us, but if 
we go about it in the right way, we can strengthen our economy 
while we reduce the CO<INF>2</INF>.
    Senator. Boxer.  Thank you, Senator.
    Senator Bond.
    Senator. Bond.  Thank you very much, Madam Chair.
    Welcome, Mr. Vice President. It is good to have you back.
    Your Inconvenient Truth spends a lot of time discussing the 
problem, but little time detailing solutions my constituents 
can live with. Indeed, the chart on this book shows that of the 
305 of the 328 pages, or 92 percent, there are pictures of 
glaciers, lakes, graphs, charts. If you actually want to find 
out how society or how Government or how the world can deal 
with this problem in ways that won't turn off the lights or 
heat or cost poor and middle-income families billions, this 
book truly is inconvenient.
    Only 5 percent of the pages provide personal solutions like 
composting and buying local. Economists get two pages. Wind get 
another, the same amount; renewable energy the same amount. 
That is a handful of pages on proposals that will cost families 
and workers hundreds of billions of dollars in the 
transportation, power and energy sectors, and unfortunately, 
cost many of them their jobs.
    We are being asked to threaten blue collar manufacturing 
workers supporting middle class families and threaten the poor 
on fixed incomes with heating bill increases. But we get almost 
no discussion of their plight, how they would suffer or how 
they would cope under certain carbon cap plans.
    Your own words confirm this approach of focusing on the 
problem, and not the pain of the solutions. Last year when 
speaking to Grist magazine, I understand you said, ``I believe 
it is appropriate to have an overrepresentation in factual 
presentations on how dangerous global warming is to open up the 
audience.''
    Well, that is pretty stark language, if you believe you can 
overstate the facts to get a message out. You justify this by 
calling global warming a moral issue. You say we should think 
of the children when we consider the issue. I agree with you. 
But I happen to agree that the moral issue here when we think 
about children may be represented by what I consider a moral 
commitment to the child pictured here, and many like her. The 
little girl appeared in Capitol Hill newspapers. I don't know 
her name, but I fear her plight because it is shared by many 
Missourians.
    This girl is cold because her family cannot afford to pay 
their heating bills. This is an ad by AARP for more LIHEAP 
funding. It notes that 29 million American families cannot 
afford to pay their heating bills. LIHEAP is a program I 
support, but it can only help one in six suffering families. 
Even if we doubled funding, we couldn't help all that is 
needed. This leaves the little girl to wear a coat inside when 
it gets too cold, and that is exactly what the caption beside 
her reads: ``I have two coats, one for inside and one for 
outside.''
    But with higher heating bills from carbon cap legislation, 
would this little girl have to wear two coats inside? How many 
millions would suffer her fate of freezing through the winter? 
Should we tell this freezing little girl we can only listen to 
one side of the story? That we should ignore the latest 
research, including that showing perhaps a correlation between 
temperature change and changed particles from sunspots? That we 
need to better understand the Earth's feedback mechanisms and 
our climate systems.
    Now, I strongly support taking action that will have 
significant environmental benefits. I support biofuels like 
biodiesel that can cut CO<INF>2</INF> emissions by 30 percent. 
I support IGCC coal gasification that allows for carbon 
captures. You mentioned Asia. I strongly support President 
Bush's Asia Pacific Partnership. I support the auto industry 
doing more with flex-fuel vehicles, hybrids, plug-ins. I am a 
big fan of nuclear energy. I personally planted 10,000 trees, 
not just for carbon, but for the wood.
    But your proposal today to freeze immediately 
CO<INF>2</INF> emissions would stop economic growth and, I 
fear, jobs. I will fight against unwise carbon plans like caps 
that unfairly punish certain parts of the country like the 
coal-dependent Midwest and the South, jacking up heating bills, 
making air conditioning unaffordable, and taking jobs away from 
blue collar manufacturing and other workers.
    Experts estimate that heating, cooling and electricity 
bills from traditional coal-fired plants would go up 80 percent 
if carbon sequestration is required. Do you believe families 
and workers should pay this price?
    Senator. Boxer.  Let me just say that the Senator has five 
seconds left, so I will give you a minute, and then we will 
move on to the next Senator.
    Mr. Gore.  Was one of those questions about sunspots? I 
didn't understand the reference to the sun spots.
    Senator. Bond.  There are some scientists who say that 
sunspot activity is directly related to global warming. That is 
one theory, like the theory that humans are the main source of 
global warming; that our emissions are.
    Mr. Gore.  Okay. Well, you know, again the international 
scientific community and the American scientific community, our 
National Academy of Sciences and the international group that 
has four unanimous reports now in 15 years, says that the 
conclusion that humans are the principal causes is unequivocal. 
The idea that sunspots are causing this problem, I respectfully 
disagree.
    One of the signatures of the issue is a really interesting 
phenomena. As the atmosphere heats up, the stratosphere cools 
down. There is a reason for that. If it were being caused by 
sunspots, then both the troposphere, the lower atmosphere, and 
the stratosphere would both be heating up. If it were caused by 
CO<INF>2</INF>, which it is, according to the scientists, they 
predicted in advance, okay, that means it will warm up in the 
part we live in, but it will cool down above this area where 
the greenhouse gases are accumulating. And sure enough, it 
happens exactly that way.
    Moreover, in the last 30 years, there has been no 
appreciable increase, the scientists say, in the solar 
radiation output, and yet the 10 hottest years ever measured 
have been since 1990; 20 of the 21 hottest have been in the 
last 25 years. I mentioned earlier, the hottest was 2005.
    So the so-called sunspot theory, according to the 
scientists, has been pretty definitively discarded. That is not 
coming from me. That is coming from the scientific community.
    Now, on the question of the affordability.
    Senator. Boxer.  Senator Gore, I will give you 60 seconds 
to address the issue.
    Mr. Gore.  I will respond further for the record, Madam 
Chair.
    Senator. Boxer.  No, I would like you to just, the question 
of affordability, I think the picture of the little girl and 
wearing two coats, I think is----
    Mr. Gore.  I also support the so-called LIHEAP program, the 
Low Income Heating and Energy Assistance Program. I said in my 
earlier testimony that I think that that ought to be a robust 
program and we should make sure that there are no families in 
this country that go without heat if they need it. I think 
Government ought to assist them. Absolutely.
    Senator. Boxer.  Thank you, Senator.
    Senator Lautenberg.
    Senator. Lautenberg.  Thank you very much, Madam Chair.
    Thank you, Vice President Gore, for your wonderfully 
elaborate presentation of the facts to the American public and 
the world at large. The attention it has gotten has established 
credibility that can't, no matter how much we challenge it from 
this Committee's perspective or other places, it is not going 
to stop the public interest in getting this problem solved.
    Now, I know that there was some contention here, but the 
fact of the matter is that our distinguished friend and 
colleague is the one who suggested that the greatest hoax 
perpetrated on the American people is global warming.
    Now, I haven't heard anybody else support that notion. It 
just shows you where the perspective is on what we have to do 
in this Committee and this Congress. We talk about the cost of 
jobs. Well, that is an arguable thing, and you have said, and I 
think produced evidence that it will not damage the economy. In 
the final analysis, it will improve it.
    But the one thing that is irrefutable is the fact that if 
we don't do something about this, it is going to cost lives. I 
want to read something here from the Union of Concerned 
Scientists. This is a credible organization, I would say. I 
hope our friends would agree. ``The reality of global warming, 
including the role of heat-trapping gases from human activities 
in driving climate change, has been repeatedly affirmed by 
scientific experts.'' They go on to say, ``Every day that we 
choose to ignore climate science is a day we failed to protect 
future generations from the consequences of global warming.''
    Mr. Vice President, and people within the sound of my 
voice, my biggest concern, and why I do what I do here, is my 
10 grandchildren. If I care enough about my 10 grandchildren to 
want to do something to protect their health and their 
longevity, then I think that we all ought to be looking at what 
we do about our grandchildren.
    When I listen to these challenges that were presented to 
you, Mr. Vice President, I am thinking of the Luddites who were 
opposed to technology and took 100 years or so to establish 
that maybe the technology was good for us. I think that is 
still the case.
    I know you have spoken to scientists across the country 
about global warming and its impact. What do you think the 
persistent efforts of the Bush Administration to censor, 
suppress Government scientists has had on the morale of these 
people? Did you get a chance to hear from any of them that you 
talked to?
    Mr. Gore.  Yes, I have. Some of them are put under a lot of 
pressure. Absolutely. Jim Hansen testified yesterday. He is one 
of the most distinguished of them. He is a very gutsy guy, and 
has stood up to the efforts to censor his scientific reports. 
There are some others who aren't as visible and don't have the 
same chance to get out there and fight for themselves. 
Inevitably, there are some of them who feel the pressures. 
Sure.
    Senator. Lautenberg.  Yes, the one thing that we have seen 
here repeatedly is testimony, material submitted by qualified 
scientists for review who work for the Government, and when we 
see their reports redacted, things eliminated, meanings changed 
constantly, it is a discouraging thing. The attempt to 
influence the public against taking appropriate measures to 
reduce the threat that global warming and climate change poses 
to us is really hard to fathom. But Mr. Vice President, you 
have shown a persistence and tenacity that is to be admired. 
You can't quit because the entire world is looking at ways to 
relieve ourselves of this impending threat.
    Mr. Gore.  They are looking to this Senate, Senator 
Lautenberg. I know that many of you are going to be trying to 
redeem the promise that our democracy makes to them.
    If I could say just one other thing in response. I admire 
your work on this issue of long standing, Senator Lautenberg. 
Thank you for your service. I do believe that it is morally 
wrong to have individuals who have a political brief and no 
scientific training put in positions where they censor 
scientific reports simply because the conclusions of the 
scientists are inconvenient for the commercial interests that 
in many cases these individuals have come out of, and then go 
back to after their time in the executive branch.
    I remember a time when that would have caused bipartisan 
outrage. I know that there have been plenty of Republicans who 
have expressed concern about that. I don't mean to imply that 
there are not now. But standing up for the scientific method, 
for truth, for open science, that shouldn't be a partisan 
issue. It really should not be a partisan issue.
    Senator. Boxer.  Thank you, Senator.
    Senator Isakson.
    Senator. Isakson.  Thank you, Mr. Vice President. Welcome.
    Mr. Gore.  Thank you.
    Senator. Isakson.  I know she won't remember, but 10 years 
ago when I chaired the Board of Education in Georgia, I had the 
privilege of escorting Mrs. Gore to the Teacher of Excellence 
awards celebration sponsored by Cox Newspapers in Atlanta. I 
just want to thank her for her advocacy on behalf of kids, and 
particularly the content that they are exposed to. I appreciate 
that very much.
    Mr. Vice President, I am a big believer in finding positive 
solutions, so I would like to look at two things for a second. 
It appears to me that to solve, let me put it another way. 
Utilities, the generation of electricity, the manufacturing of 
goods and services are significant contributors and are 
oftentimes demonized.
    Yet in fact, I think they are a route to the solution of 
many of the problems we face. For example, if you can't burn 
coal because of carbon, and if natural gas increases five, six, 
seven times what it was a few years ago, which it has, and yet 
you do want to provide the energy to manufacture, to heat 
homes, et cetera, it seems like to me that nuclear energy is 
certainly a major part of the solution.
    One of the things that frustrates me is every time I listen 
to people talk about the things that we need to do to solve 
environmental problems, one of those things that is never 
mentioned by those advocates is the great efficiency, lower 
cost, and non-polluting effects of nuclear energy.
    Do you think nuclear energy and its generation of power is 
a part of the solution?
    Mr. Gore.  I think it is likely to be a small part of it. I 
don't think it will be a big part of the solution, Senator. I 
used to represent Oak Ridge, where we are immune to the effects 
of radiation. So I used to be more enthusiastic about it. I am 
more skeptical today for a lot of reasons. The main one is 
cost. I am assuming that we will somehow find an answer to the 
problem of long-term storage of waste. I think Yucca Mountain 
is deficient.
    I am assuming that we will find an answer to the problem of 
errors by the operators of these reactors. I have been to Three 
Mile Island. I went to Chernobyl. The whole industry is 
affected when there is one of those. But I am assuming those 
can be solved.
    Now, for the eight years I was in the White House, every 
nuclear weapons proliferation issue was connected to a reactor 
program. That is a problem if the world wanted to make nuclear 
power the option A for the whole world. It would make that 
problem worse. But the main problem I think is economics. The 
problem is these things are expensive. They take a long time to 
build, and at present they only come in one size, extra large.
    In a time when the efforts to project energy demand is 
plagued by uncertainty over what oil prices will be, and 
electricity shouldn't follow the price of oil, but it does 
because there is enough fungibility at the margin between oil 
and coal that it just chases the oil price. Again, it is $60 a 
barrel, and what will it be next year? The answer is not 
important, but the uncertainty is. The answer is important, 
too, but where this problem is concerned, it is the uncertainty 
about the answer that makes the utility managers reluctant to 
bet all their construction budget on very large increments that 
take a long time and have certain other fragilities associated 
with them.
    In the Tennessee Valley Authority, I forget the precise 
numbers, but when I came to the Congress in the 1970s, we had 
something like 21 reactors under construction. About 19 of them 
had to be cancelled after the oil crisis of 1973 and 1979. You 
may get the same questions I used to get, Senator Alexander, 
about whether or not those partially completed cooling towers 
could be used for grain silos. People are still unhappy about 
having to pay for the ones that were not completed.
    So I think that it will play a small role in some areas, 
but I don't think it is going to be a big part of the solution.
    Senator. Isakson.  On that answer, let me just make a 
couple of comments to think about. The 1974, 1975, 1976 period 
that you refer to in terms of Oak Ridge and the WHOOPS bonds in 
Washington, Pacific Coast, it was double digit tax-deductible 
interest rates on the power bonds that were generated to build 
those plants that shut everything down.
    In fact, and I am trying to help here.
    Mr. Gore.  No, go ahead.
    Senator. Isakson.  The nuclear generation proliferated 
because, interestingly enough, of the cost of coal. Coal went 
so high and spiked so much in the late 1960s and early 1970s, 
nuclear was the next route to go to.
    I know I am running over. I apologize. Let me just finish 
this thought.
    Chernobyl was terrible, and it was in part an engineering 
and a lack of standards disaster. Three Mile Island, in fact, I 
think was a credit to the American nuclear regulatory 
authorities that what could have happened and did at Chernobyl, 
didn't happen in America.
    Mr. Gore.  I agree.
    Senator. Isakson.  But I can't imagine how we would work 
our way to a positive solution if nuclear energy is not a key 
component because of its capacity to build and its capacity to 
generate, and its capacity to provide economical non-polluting 
energy. So hopefully, it will be a part of this debate, because 
in the end it is a critical part of the solution.
    Mr. Gore.  Could I comment briefly, Madam Chair?
    Senator. Boxer.  Yes.
    Mr. Gore.  I think you make great points, Senator. And I 
have learned from you, and I appreciate it. Indeed, the 
interest rates on the power bonds was a big part of it. I 
didn't mention that. In spite of those rates, they were 
projecting a 7 percent annual compounded increase in 
electricity demand in the early 1970s, and when the price of 
oil chased oil and electricity rates went up, that 7 percent 
figure became a 1 percent figure.
    So yes, it was both factors. I do agree with you, though, 
that it needs to be a part of the debate. I just happen to 
think it is going to be a smaller part. Take China, for 
example. We talked about it earlier. In their five year plan 
right now, they are projecting 55 new 1,000 megawatt coal-fired 
generating plants every year, and only 3 nuclear plants. Now, 
they don't have to worry about public opposition. In a way they 
do, but they do for coal also. So see, they are looking at the 
same economics of the long lead construction and the cost, and 
some of the uncertainties.
    Now, there is a new generation of reactors coming along 
that has a smaller increment. They may be more reliable and 
more standardized. We may get a solution to the waste issue. So 
I am not a reflexive opponent of nuclear. I just happen to 
think it is only going to play a small role. But I appreciate 
the dialogue. Thank you.
    Senator. Boxer.  Thank you, Senators.
    And now for another reunion, Senator Lieberman.
    Senator. Lieberman.  Mr. Vice President, thank you very 
much for being here. It is great to see you and Tipper. And 
thank you for your extraordinary leadership in this cause. You 
have served your Nation in many very important and substantial 
ways. It may turn out in the sweep of your life that this 
leadership you are giving to wake up America and the world to 
the oncoming peril of global warming and the need to do 
something about it quickly may be your greatest service, not 
just to this country, but to the world, because this is, as you 
said, a planetary crisis.
    I appreciate very much the way in which you have gone at 
this with an intellectual rigor. You have studied the science. 
You have a tremendous capacity to convey the facts. And you 
have added to that the moral dimension, which is to say that we 
have a choice to do the right thing or the wrong thing. We have 
a choice as to whether to exercise our responsibility to coming 
generations.
    So I guess what I am saying is that your leadership here 
has been so fact-based and faith-based. And that is a pretty 
powerful combination. I thank you for it.
    It has seemed to me, as we have gone on, that eventually 
the United States Government is going to do something about 
global warming. The question is whether the Government will do 
it soon enough, whether our country will do it soon enough. To 
state it starkly, whether we would reach a climatological 
tipping point before we reached the political tipping point, I 
think we have reached the political tipping point now. I think 
the kind of coming together of people from the business 
community, the faith-based community, hunters, fishermen, just 
people worried about this is very impressive. We have a real 
chance to do something about this, frankly, sooner than I 
though we would.
    It is interesting to me that the questions being asked here 
today by most, though not all, of the members of this 
Committee, are no longer whether global warming is a problem 
and whether we should do something about it, but how we can 
best do something about it. I think Senator Isakson's questions 
were very much in that spirit, and he will play a very 
important role in whether we do something here.
    Senator McCain and I, as you know, have a cap and trade 
bill. We are very proud that it is bipartisan. Senator Collins, 
Senator Snowe and on this Committee, I am very grateful that 
Senator Clinton has cosponsored it.
    I want to ask you a practical question that members are 
asking. It is about the role of coal, both in a natural home 
State sense that a lot of Senators represent coal States; and 
in a larger sense, coal, as you well know, is the natural 
energy resource that we in America have in the greatest 
abundance. There are some fears among people in business that 
if we don't do something to produce clean coal, that there will 
be a mass movement toward natural gas, which will raise the 
price of natural gas and hurt industries that depend on it.
    So I would like you to talk to your former colleagues here 
about what the practical prospects are for using coal as part 
of a cap and trade system to deal with global warming.
    Mr. Gore.  Thank you, Senator Lieberman. And thank you for 
your longtime leadership on this issue. When we served together 
in the Senate and indeed when you were Attorney General of your 
State before coming to the Senate, you were already offering 
leadership on this issue.
    I so vividly remember in Nashville, TN when your mother, 
bless her soul, bless her memory, came down the hallway, and I 
opened the door and she looked at me and said, you made a good 
pick.
    [Laughter.]
    Mr. Gore.  One of the reasons I always thought she was 
right was your leadership on this issue. I appreciate it.
    Senator. Lieberman.  Mom was a straight talker.
    Mr. Gore.  Oh, was she ever. God bless her.
    I don't agree that we are at the political tipping point. I 
think we are near to it. I think we are very close to it, but I 
don't think we are over it yet.
    I also agree that this is an issue that many faith-based 
individuals are coming to. I say this to Senator Inhofe. You 
know, I don't proselytize my own beliefs, but all religious 
traditions hold to the same teachings. I do believe that the 
Earth is the Lord's and the fullness thereof. I believe that 
the purpose of life is to glorify God, and you cannot do it 
while heaping contempt on God's creation.
    I think that the joining of this debate by the evangelical 
and faith communities has been a very powerful factor changing 
the dynamics here.
    Now, on coal, if you look at what happened with the TXU 
decision, first of all, to back away from eight of the eleven 
coal-fired plants they had planned, and then to engage in a 
private equity buyout that has very unusual and unexpected 
green characteristics to it. I think what that reflected more 
than anything else is the great need in the energy marketplace 
for a price on carbon. The future of coal depends on quickly 
establishing a price in the marketplace for carbon.
    Morgan Stanley just executed the first post-2012 trade on 
carbon emissions outside any governmental framework. I think 
that as soon as there is a price on carbon emissions that the 
marketplace can clear, then you will have the unleashing of 
investments in carbon capture and sequestration in a realistic 
and reliable way, and that will open up a future for coal that 
does not destroy the environment of the Earth for us human 
beings. I think that is the key to it.
    Now, the best carbon capture and sequestration in the world 
is probably in Norway. I asked them the secret of it. I was 
over there last week, 10 days ago. They said, well, the secret 
is we have a CO<INF>2</INF> tax. And there are a lot of 
exemptions for it, but the offshore drilling is not one of 
them, and we told them they would have to pay this tax unless 
they could capture and sequester, and they said okay. And they 
found out how to do it, and they do it extremely well, 
scientifically reliable.
    Iceland is doing the same thing. I am not saying it is 
easy. I am not an expert on exactly which techniques are best 
and in which geological areas. That is above my pay grade, like 
a lot of things. But I do know that the predictability of the 
price, where you internalize the externality, that is really 
the key to it. And then that will drive toward environmentally 
safe measures.
    One way to describe the essence of this problem is the 
market is partially blind to these environmental externalities, 
they call them. And we are all familiar with that phrase. What 
is, you know, air, water----well, I internalize water and air, 
and we all do. But the economy should also. And not to be glib 
about it, but in order to open up a future for these businesses 
that is sustainable and viable, I think that we have to 
internalize those externalities.
    Senator. Lieberman.  Thank you.
    Senator. Boxer.  Thank you.
    We are moving toward a time when we are going to have some 
votes, so we are going to move ahead. Let me give you the 
order. We are going to go Senators Craig, Baucus, Alexander, 
Clinton. Those are the next four.
    So Senator Craig.
    Senator. Craig.  Madam Chairman, thank you very much.
    Mr. Vice President, welcome back to a turf you knew well. 
We are pleased to see you here.
    I am not sure that I have a question of you. You were 
recently in my State and you were well received. I think 
Idahoans were proud to have you there. One of the reasons we 
were proud to have you there is that we are probably one of the 
cleanest States in the Nation. We are proud of that. Our energy 
sources are clean by definition. In fact, my State just 
rejected a coal-fired plant to be built as a merchant generator 
in Southeastern Idaho, because of the technology involved.
    Having said that, we have produced 50 nuclear reactors in 
the history of our State, and we are proud of that, and all 
were produced safely, and no one lost their life.
    And so I have always been a little frustrated by your 
position on nuclear because I grew up near a laboratory, as did 
you. It is a safe laboratory. It was well run, as was yours. 
And I don't agree with you that nuclear is not part of the 
solution.
    When you killed the nuclear industry or attempted to during 
your Administration, by zeroing out the nuclear budget, an 
inquisitive look simply does not refute the fact that you did. 
And in doing so, you probably set back the advance of nuclear 
technology substantially, in fact, the very technology that 
just a moment ago you endorsed, NGNP, which is the new advanced 
modular type reactors, high temperature, that can do a lot of 
things and by definition is safer, although the nuclear 
industry itself is phenomenally a safer industry than many.
    It is not the most expensive source of energy today. It is 
a least-cost producer, existing reactors are, that have been 
relicensed and retrofitted. At 21 percent of our energy base 
and 70 percent of France's, and 50 percent of Japan's, already, 
already the nuclear industry is a factor in contributing to a 
baseload that is a clean source.
    The reason I say this is because when we passed the Energy 
Policy Act in 2005, I was one of those Senators who suggested 
we ought to call it the Climate Change Act of that year. Why? 
Because it was all about clean energy. It was all about 
advancing technology. This country no longer wants to produce 
gas-emitting sources of energy. The investment that is pouring 
in out there now, the investment in fact this country is 
putting into climate change is by a factor of five greater than 
the rest of the world combined as it relates to research and 
development. That is something we ought to be very, very proud 
of.
    I am. I think we are advancing the cause dramatically at 
this moment. What this Congress has chosen not to do is to 
freeze or cap or trade. That is the one part of your equation 
we have chosen not to do. The rest of the equation we are 
doing, and probably in the most aggressive way that it has ever 
been done before. Before the passage of EPAct, we had one 
reactor on the drawing board. I think as of last week, 33. 
Probably 10 of those will pour concrete in the next 10 to 12 
years.
    Yes, we still have problems about waste management. That is 
why the creation of the very thing that you hint about, GNEP, 
bringing together a consortium to reflect the importance of a 
nonproliferating nuclear source that is manageable and 
controllable. I will not forget sitting on the stage with the 
Environmental Minister from China at the last climate change 
conference that meant anything, in Buenos Aires, and he said, 
you give us the technology and we will build them.
    But right now, we are going to do exactly what you just 
mentioned. We are going to build a lot of coal-fired, because 
we are more interested in our economy and the well being and 
growth of our people for the time being.
    I am phenomenally proud of what we are doing as a country. 
I believe we do lead the world. It isn't by accident that we 
are a large emitter of gas, because we are the largest economy 
of the world based on today's technologies. We are going to 
invest heavily. We are going to incentivize. In fact, I would 
like to have you look at a bill that Byron Dorgan and I just 
introduced. I have made a step in the direction of deciding 
maybe we ought to heighten our CAFE standard. You call them gas 
guzzlers. I say let's look at a technology that works, and in 
no way diminishes the safety of the transporting public.
    So we are pleased you are here. I disagree with your point 
of view. I do not believe that this country needs to stand in 
shame of what it is doing or what it plans to do. We have 
become the world leader in clean energy and we will work to 
stay there and transport it to the rest of the world.
    Sorry, Madam Chairman. Don't break your gavel.
    Thank you very much, Mr. Vice President.
    Senator. Boxer.  I am not breaking it. I am being gentle.
    [Laughter.]
    Senator. Craig.  As only you can be.
    Thank you, Mr. Vice President.
    Senator. Boxer.  It took a lot of patience. I learned it 
right here.
    Mr. Vice President, I give you 60 seconds to respond to 
that speech about nuclear energy.
    Mr. Gore.  I didn't say that I didn't think it was part of 
the solution. I said that I think it is part of the solution. I 
just don't think it is going to be a big part of the solution.
    I will respond for the record on the business about killing 
nuclear energy. I really don't know what you are referring to, 
but I will find out and I will respond.
    Senator. Craig.  DOE's budget during your time and the 
nuclear portion of that budget. Go back and check your records.
    Mr. Gore.  I will and I will respond to the record.
    Senator. Craig.  Thank you.
    Mr. Gore.  I really enjoyed being in Boise. Madam Chair, at 
Boise State there were 10,000 people who came out and I 
couldn't believe the size of the crowd. It was wonderful. It 
was bipartisan. It was a great time. I showed my slide show 
there. I ended with Boise State winning the Fiesta Bowl. It was 
a great evening.
    Senator. Craig.  He played to our blue turf.
    Mr. Gore.  I loved the editorial the next day, or two days 
later, calling for carbon reductions. I was heartened that 53 
Senators did vote for Senator Lieberman's bill, a version of 
that just last----
    Senator. Boxer.  With Senator Bingaman at that time.
    Mr. Gore.  That is right, and various versions. Thank you.
    Senator. Boxer.  Thank you very much.
    Senator Baucus welcome.
    Senator. Baucus.  Thank you, Madam Chairman.
    Thank you, Mr. Vice President. You provide such leadership 
on this issue, and I speak for myself and many others how much 
we commend you for it.
    You mentioned Jim Hansen. I remember a good number of years 
ago, I was sitting on the Energy Committee. I am not on that 
committee. And Jim Hansen testified, a good number of years 
ago. I remember thinking then that this guy has probably got it 
right. He is on to something. And you followed up. I think you 
were part of that hearing, too, if I vaguely recall it.
    It reminds me, too, of how we addressed some other 
atmospheric challenges and solved them. One is 
chlorofluorocarbons. The scientists were right there, and we 
solved it. Another is under the Clean Air Act, with the cap and 
trade system that we enacted. There were a lot of naysayers, 
but it turned out to be better than people thought. People made 
some money off of it and for the right reasons.
    I also thank you for hiking up to Grinnell Glacier several 
years ago to demonstrate how much that glacier in Glacier 
National Park is shrinking as a consequence of climate change.
    I do believe that the science is clear. There is no doubt 
about that. I do believe that we have to rally not only this 
country, but worldwide, and find ways to encourage China and 
India and other developing countries to be in on the solution, 
helping them realize that they could be stakeholders, they can 
be world citizens by contributing to a solution here, because 
we are all in this together. I urge you to help us find ways to 
accomplish that.
    I believe that a solid reasonable cap and trade system 
makes good sense. We should begin quickly. But I also believe 
that any system we put in place has to be economy-wide. It 
shouldn't exempt certain sections of the economy. Some suggest 
only with respect to stationary sources and exempt the mobile 
sources. I don't think that is right. I think we are all in 
this together.
    The dynamic is much more powerful if we all agree that we 
are all in this together, rather than some significant section 
is exempted. It just won't work.
    My question to you is just, you talked a little bit on 
this, is the use of coal, and especially carbon sequestration. 
We in the Finance Committee are moving aggressively to develop 
greater energy independence for the United States. That clearly 
dovetails with climate change, and trying to find the energy 
technologies that are most efficient on a calorie in- calorie 
out sort of basis, but dealing with climate change with the 
same intensity.
    I think the practical reality is we have coal here. Coal is 
going to be part of the future. I think you said that. But the 
question is how to make coal the right part of the future. We 
have reports, like I say, a MIT professor just reported to this 
Committee a couple of days ago worried that it might take 10 
years to get carbon sequestration in a meaningful ways up and 
going, that is to deploy it, get the legal framework, 
demonstration plants and so forth. I don't know that we really 
have 10 years.
    So any thoughts you might have about carbon sequestration, 
how we get it working a little more quickly and more 
efficiently, more aggressively. You mentioned Norway, with a 
carbon tax. That is interesting, but maybe there are some other 
ways. Whatever you think would work here, it would help us not 
only on this Committee, but also in the Finance Committee where 
we are going to be enacting tax incentives to help us become 
more energy independent and also deal with climate change in a 
very realistic way.
    Mr. Gore.  Yes, I know that a CO<INF>2</INF> tax is 
considered just wildly unrealistic now, but you know, our 
pattern of financing our social programs and health and welfare 
programs on the backs of employment has outlived its 
rationality and usefulness. I know the degree of difficulty in 
changing that. I understand it. But you know, we are worsening 
our single biggest disadvantage in global competition now. And 
if we could shift that and give employees and employers a 
break, and shift over to a pollution-based tax----
    Senator. Baucus.  You mean, abolishing the payroll tax?
    Mr. Gore.  Yes, sharply reduce or eliminate it. Absolutely. 
And replace it with a pollution-based tax system, principally 
CO<INF>2</INF>. I fully understand how inaccessible that sounds 
in this context. I really believe that that would help our 
economy, help our competitiveness, and I think it would put 
incentives in place to do the right.
    Now, let's assume for the moment that you are not attracted 
to that. I do urge you to think about it in all seriousness, 
Senator. I really believe it very strongly. I think it would be 
a macroeconomic stroke for our economy's future. I really do.
    But now, where coal plants are concerned, there are some 
kinds of coal plants, you take pulverized coal plants, 
according to the old design, there is no way they could ever be 
retrofitted with carbon capture and sequestration.
    Senator. Baucus.  Too expensive.
    Mr. Gore.  Well, just the physics of it. They produce so 
much nitrogen mixed in with the CO<INF>2</INF> that there is no 
way to ever capture and sequester it. It just can't be done.
    Now, a brand new design of pulverized, oxygen enrichment, 
they say there are ways to do that. I don't know. But Ernie 
Moniz's report from MIT raised some questions about the IGCC, 
whether that is ready for prime time. Again, there are experts 
who know about these things far more than I do. I would say the 
principle is, we should not build any more coal-fired 
powerplants that are not readily adaptable for full carbon 
capture and sequestration, full stop.
    Now, the banning of the one in Idaho, the demonstrations by 
Republican as well as Democratic Mayors in Texas leading to the 
banning of those, I think you are going to see that all over 
this country. There is going to be a de facto moratorium in a 
lot of places, and I think we need to open up a pathway for 
carbon capture and sequestration. Put a price on the carbon. A 
tax is the best way. Cap and trade can also do it.
    Senator. Baucus.  Thank you very much.
    Senator. Boxer.  Senator Baucus, thank you.
    Senator Alexander, followed by Senator Clinton.
    Senator. Alexander.  Thank you, Madam Chairman.
    Mr. Vice President, thank you again for being here. As I 
said when I introduced you, I believe there is a problem. I 
believe human activity caused it and I think we ought to work 
together to fix it.
    I want to make a comment about nuclear power, if I may, and 
then ask you some questions about cap and trade as it might 
apply to carbon and electric utilities. That is where I am 
going.
    I hope you will continue thinking about nuclear power 
because as I have gotten more into this over the last three or 
four years, it looks to me like, and this is my judgment, that 
if you really want to solve or get hold of the climate change 
issue, the carbon problem in a generation, that nuclear power 
is a big part of it, because as I think of our big economy, 
producing about 25 percent of the energy in the world or 
consuming it, and I think of ways to produce a lot of 
electricity. Let's just start with electricity.
    It seems to me there are only three ways to produce big 
amounts right now, in the near term. One is conservation and 
efficiency. That ought to be the easiest and the first thing to 
do. You have talked about that. Two is nuclear and three is 
coal.
    Nuclear today produces I believe 70 percent of our carbon-
free electricity, although it is only 20 percent of our power. 
That is a startling fact to me. If we are worried about the 
next 10 or 15 years, and nuclear is 70 percent of our carbon-
free, then I would think we might want to do more of it. And 
the cost, you are right. It does cost more to build the big 
plants, but plants are becoming cheaper, it looks like.
    TVA is about to complete a new one on cost and under 
budget. But once they are up, it is the cheapest power to 
operate. It is two cents, while coal is next at three cents. If 
we add new carbon recapture technology, coal is going to go up. 
And then gas is higher than that. There is a big question about 
whether we really want to encourage everybody to switch to gas.
    So without getting too far into it, the conclusion I have 
come to is that in the near term, despite the proliferation and 
waste issues, which are real issues, that if we want big 
amounts of carbon-free energy in the United States, that we 
ought to take nuclear very seriously.
    Here is my question.
    Mr. Gore.  Could I respond briefly to that before?
    Senator. Alexander.  Sure. Of course.
    Mr. Gore.  I think there is a fourth. Along with 
conservation and efficiency, coal and nuclear, I think the 
biggest source is widely distributed small scale generation in 
a smart grid or electranet, where individuals can use the new 
sources. There is so much VC money going into developing these 
technologies. The new generation photovoltaics, new generation 
windmills, and you couple that with the conservation and 
efficiency, new generation of enzymatic hydrolysis producing on 
a small scale.
    I think that the old thinking, and I am not using that as a 
pejorative phrase, but I really and sincerely believe that the 
old way of thinking is big centralized, whether it is 
Government or corporate management or whatever, big centralized 
units where everything goes out from the center. I think that 
just as computers with the massively parallel processing, I 
think that the widely----
    Senator. Alexander.  I want to make sure I get to ask you 
my question.
    Mr. Gore.  Yes, okay. Go ahead.
    Senator. Alexander.  I grant your point. I will think about 
it.
    Here is my question. You talked about coal freezes. Is it 
not true that in 1990 or 1991, that we basically adopted a 
sulpher freeze in this country with a cap and trade system 
during a Republican administration.
    Mr. Gore.  Yes, yes.
    Senator. Alexander.  We said we are worried about acid 
rain. As far as electric utility plants go, we are going to 
say, no more, no more. We are going to put a cap on sulpher.
    Mr. Gore.  Right.
    Senator. Alexander.  Now, that didn't mean that you had to 
shut down all the coal plants. It just meant you had to start 
reducing it and the end result, and basically we said we have a 
cap on sulpher; we are going to freeze it; we are going to go 
down to 50 percent; and we will give our allowances based on 
historical emissions of coal. And then over 15 years, that has 
been very successful. We even have new EPA rules that say, 
well, cut it again in half, and again in half after that.
    So here are a couple of questions I have for you. One is, 
was the cost of that prohibitive? Do you have any figures about 
that? I would think not, since the United States GDP grew 
compared to the rest of the world during that 15 year period of 
time.
    And the second is, why couldn't we start an effort on 
climate change by putting such a cap system on electric 
utilities since we already know how to do it. We have had 15 
years of experience. It is 40 percent of the carbon and it is 
the fastest growing produced part of the carbon that we produce 
in this country.
    Mr. Gore.  A great question. You know, people didn't say it 
at the time, but this was a Republican idea. It was former 
President George H.W. Bush's proposal. Some Democrats were 
opposed to it. Some environmental groups were opposed to it. I 
was for it. I had no idea that it would be as good as it was. 
And by making it possible to use the market forces to help us 
accomplish what we wanted, what happened was the price for 
reducing sulphur dioxide ended up being just a small percentage 
of what had been projected when that was put in place. It was 
wildly successful. In fact, Kyoto was really based on the 
success story of that cap and trade system.
    Now, there is a new proposal that is a modification of it. 
Instead of giving away the emissions, the start units, auction 
them off. We talk about protecting the low-income Americans and 
helping with the expenses of this transition, auctioning them 
off is an idea that I think is a good one also. I wouldn't 
reach for that if it meant killing the whole thing, but I think 
it is basically a good idea. I think you are on to something.
    Final point. I do think that the best approach is an 
economy-wide approach. I think a utility-only approach suffers 
from the same problem that those who want to take a CAFE-only 
approach do. I think that we have to put together a 
comprehensive bill. I think if we do it with the kind of 
philosophy you are talking about, Senator Alexander, let the 
market work for us. I think that the cost of accomplishing this 
is going to be far less than anybody imagines now.
    Senator. Alexander.  Thank you, Madam Chair.
    Senator. Boxer.  Thank you very much. Thank you.
    Senator Clinton.
    Senator. Clinton.  Thank you very much.
    Senator. Boxer.  You are very patient. Thank you.
    Senator. Clinton.  This has been absolutely wonderful. I 
want to thank Vice President Gore for taking his time to come 
back here to the Senate, and perhaps, Madam Chairman, we could 
indulge upon him in the future to meet with those of us on both 
sides of the aisle who are interested in this issue, to perhaps 
go into some even greater detail on some of your proposals.
    Of course, I want to welcome Mrs. Gore as well.
    I wanted to just ask for some further clarification on a 
couple of your proposals, which I find extremely intriguing. 
The first, to follow up on Senator Alexander, if there were a 
carbon-based tax, would there be a need for an economy-wide cap 
and trade system?
    Mr. Gore.  They are not either/or. We can do both. I am in 
favor of both. Many people discuss cap and trade and a revenue 
neutral CO<INF>2</INF> tax, swapping from employment taxes, as 
if you have to pick one. As a practical political matter, there 
would be some people who would say only one of the above.
    I think the most effective approach is to do both.
    Senator. Clinton.  I would really appreciate then perhaps 
some clarification and additional information on your view as 
to how that worked, because of course there is a seeming 
either/or choice that people are presenting, either a cap and 
trade system, and some of the advocates of which seem to think 
that it will be voluntary, which I find to be totally 
unacceptable. If it is mandatory, economy-wide or sector-wide, 
I agree completely with you, it needs to be economy-wide. But 
without the implementation and enforcement provisions being 
very well thought out, I am afraid we will continue to just 
sort of move along at a slow pace.
    Secondly, the Connie Mae proposal is one that I also find 
very exciting, actually. I have worked with the City of 
Rochester and the surrounding County of Monroe County in New 
York to come up with a GreenPrint, using the advice and the 
expertise of the Green Building Council, and in effect to try 
to encourage and incentivize contractors and engineers and 
architects and others to begin to think more green and to use 
the technology and the efficiency standards.
    How would the Connie Mae process work? Are you suggesting 
we actually create a federally chartered entity? And then what 
would its mission be, precisely?
    Mr. Gore.  A carbon neutral mortgage association that would 
in the manner of Fannie Mae take on these instruments that 
embody the expenditures not for the whole home, not for the 
whole building, but just for those expenditures that are 
directly related to the increasing energy efficiency. 
Typically, homebuilders will look at what amount of insulation 
is going to make the home attractive in the marketplace, and 
they will meet a standard that clears the market, but they 
won't go to the point where it really is the most energy 
efficient home because it raises the purchase price.
    Okay. This National Mortgage Association could identify an 
increment that takes where the market has settled the price 
now, add the amount that reaches all the way to the maximum 
energy efficiency. The extra amount is put into an instrument 
that is amortized by the savings in the energy bills over the 
succeeding years, and they can bundle those with all of the 
other mortgage instruments that are in the market that year, 
and they are tradable commodities.
    Senator. Clinton.  I think that is a terrific idea, Mr. 
Vice President. Would that also include the price of more 
energy efficient appliances, so that builders would be 
incentivized to use those in new home building?
    Mr. Gore.  Not as it is currently designed. I think that 
structural features of the home are generally looked at in a 
different way from the appliances that come with the home. Some 
builders include them, and some don't. I am not an expert on 
that. I see no reason why you could not also include extra-
efficient appliance standards in that. I would have to think 
about it, but I don't see why you couldn't.
    Senator. Clinton.  Well, in response to Senator Bond's 
questions, which you didn't really get a chance to respond to, 
about the little girl with the two coats, isn't is also the 
case that if we went on a more targeted approach toward 
weatherization, efficiency, perhaps that little girl wouldn't 
need two coats even with current prices, because the savings 
could be realized and the affordability of the energy costs 
could be decreased.
    Mr. Gore.  I think that is an excellent point, and I will 
include that in the response for the record.
    Senator. Clinton.  Again, I really want to thank the Vice 
President.
    And I want to thank the Chairman for inviting Vice 
President Gore. Again, if we could perhaps indulge him with 
some additional time in the future, I think it could be very 
helpful.
    Mr. Gore.  Thank you.
    Senator. Clinton.  Thank you.
    Senator. Boxer.  Let me tell you where we are. We are going 
to have a vote in two minutes. We have three people left.
    Mr. Gore.  I will be quick.
    Senator. Boxer.  Yes, well, you know, you don't have to 
worry about this.
    Mr. Gore.  I will stay. Whatever you want.
    Senator. Boxer.  That is the nice thing. We are going to 
finish up, because you have to leave, and we have three votes 
back to back.
    So I think what I am going to do is say each person three 
minutes. If you stick with it, at three minutes, I have to 
stop, and then I will say the final thank you.
    So Senator, I am so sorry that time ran out.
    Senator. Thomas.  That is quite all right. I will talk very 
fast.
    Senator. Boxer.  Okay.
    Senator. Thomas.  Thank you.
    I guess we all are very interested in alternatives over 
time. However, that is going to be over time. Now, in the 
meantime we have to have energy for this country. What do you 
think the role of the Federal Government should be in 
advocating clean coal technology so that we can use our 
greatest source in this next 10 or 15 years?
    Mr. Gore.  I think we ought to speed up the development of 
carbon capture and sequestration. I think we ought to have a 
moratorium on any coal plants that are not efficient and can't 
be used with carbon capture and sequestration.
    Senator. Thomas.  Well, as you know, we are waiting to do 
some of that. I think there is some merit in having mine 
development because most of the coal is in certain places, and 
then delivering it on the line, rather than on the train. That 
is part of the problem.
    You seem to be able to talk in 15, 20, 30, 100 years ahead. 
We can't hardly get a weather report for a year from now. How 
can you depend on what people are saying about the weather 100 
years from now?
    Mr. Gore.  Well, the computer modelers have gotten more and 
more accurate with their predictions. They test them against 
start conditions going back and run them against the models. 
You are asking me about an area of expertise where I rely on 
the real experts, not myself. I will just tell you that you 
can't predict what the temperature next January 3 is going to 
be, as well as you can predict the fact that January is going 
to be cold next year.
    Senator. Thomas.  That is true, but many of your plans are 
predicated on looking ahead at the future and so on. In terms 
of the best scientific available information, which came first: 
an increase in the Earth's temperature or an increase in global 
warming gas emissions?
    Mr. Gore.  CO<INF>2</INF> and temperature are a coupled 
system. They move up and down together. During the ice ages and 
the interglacial periods, the Earth's orbit around the sun gets 
narrower and wider on a 100,000 year cycle. The tilt oscillates 
a degree and a half on a 41,000 year cycle, and there is a 
wobble called precession on a 22,000 year cycle. And in many 
cases, that has affected the amount of incoming solar, but it 
has also at times affected the growth of vegetation depending 
on what part of the Earth was getting more sun.
    So sometimes, CO<INF>2</INF> has preceded temperature; 
sometimes temperature has preceded CO<INF>2</INF>. But at 
present, CO<INF>2</INF> is preceding the temperature and it is 
well established that that does affect temperature.
    Senator. Thomas.  They are both factors over the years.
    Mr. Gore.  Correct.
    Senator. Thomas.  You choose to become carbon neutral 
because you pay for the carbon you use. We have a utility in 
Wyoming that has 3,800 customers. They offered to have wind 
energy at $3, and 30 people signed up.
    Mr. Gore.  I would be one of them. I am one of them in 
Nashville.
    Senator. Thomas.  I know, but I guess I am saying how are 
we going to pay for all these things that you are talking 
about.
    Mr. Gore.  I think as the wind becomes mainstream, and it 
is becoming mainstream, that cost is going to become ever more 
competitive. I really believe that.
    Senator. Thomas.  But it is going to be the user that has 
to pay.
    Mr. Gore.  I think the cost is going to come down for these 
alternative sources and for the new approaches that I have 
recommended.
    Senator. Thomas.  Thank you.
    Senator. Boxer.  Thank you.
    And now, next on my list is, who is next on my list? 
Senator Whitehouse, you are next on my list.
    Senator. Whitehouse.  Thank you, Madam Chairman.
    Mr. Vice President, thank you for being here. I want to 
offer first a particular thank you, and then ask a question. I 
am married to a scientist, a marine biologist, an environmental 
scientist. People who know us both say that I am preposterously 
over-married, which is probably a condition you can sympathize 
with.
    Mr. Gore.  They say that about me, too.
    [Laughter.]
    Senator. Whitehouse.  And she has spent a lot of time 
thinking about these issues. When we saw your movie, I came out 
feeling educated and informed. She came out feeling relieved. 
She said, you know, we have known this stuff in the scientific 
community for more than a decade. Please, let's hope that this 
movie gives us the voice that we need.
    Your voice has given the scientific community that voice 
that it needed and on behalf of my wife and other scientists, 
thank you for that achievement.
    Mr. Gore.  Thank you.
    Senator. Whitehouse.  In terms of the question, could you 
say a few words about the national security consequences of 
where we are in two dimensions: one, our strategic problem with 
dependence on foreign oil; and two, the risk we face as a 
country of the consequences of dislocation of communities 
around the world from climate change, from a national security 
perspective.
    Mr. Gore.  Well, the Pentagon has done a study of this. One 
of their most distinguished security analysts did a long-term 
study and said this is a major national security threat. Now, 
they were focused mainly on the environmental refugees and the 
dislocations and the potential political disruptions around the 
world that could come from some of the consequences that, 
again, the Pentagon study highlighted.
    Of course, our dangerous over-dependence on sources of oil 
from countries that are among the most unstable on Earth is 
well known. But I want to raise one other brief point, and I 
know we are pressed for time. I mentioned the internet earlier. 
That was a national security proposal. Its purpose was to make 
communications survivable in the event of nuclear war. That is 
how it started, really.
    Well, this electranet that I have talked about would also 
have security benefits. We wouldn't be so dependent on these 
few central generation plants.
    Senator. Whitehouse.  Thank you, Mr. Vice President.
    Madam Chair, I yield back the rest of my time.
    Senator. Boxer.  Thank you, Senator.
    Senator Cardin.
    Senator. Cardin.  Mr. Vice President, thank you very much. 
You have really pointed out the urgency of this issue. I very 
much appreciate that. In my own State of Maryland, we had 
habitable islands that no longer had habitation. The sea level 
change has been dramatic in the State of Maryland. I was at 
Blackwater Wildlife Refuge over last weekend, and saw so much 
of the wetlands that used to be that are no longer there.
    So it is a real problem for the people of Maryland. I thank 
you for bringing it to our attention.
    We need a comprehensive approach that deals with the 
production and use of energy. I want to just add one additional 
part to the agenda, and that is public transit. I know in our 
region here, there are so many reasons that we need to move 
forward with public transit, but part of it is climate change. 
That is something we can control in the use of public transit, 
and it certainly takes a lot of carbons out of the air. I just 
would urge you to perhaps include a slide on that.
    Mr. Gore.  Thank you. I agree with you. Light rail is one 
of the things that is looked at in the movie, and I couldn't 
agree with you more. I think light rail and affordable, 
efficient, comfortable mass transportation is a big part of the 
solution here, and redesign of communities also.
    Senator. Cardin.  You don't need anybody to respond to 
Senator Inhofe on your behalf, but I can tell you that if 
everyone in this country did what you have done in regard to 
this issue, we would be very much further ahead, and we would 
be the leaders of the world. I am just proud of the work that 
you have done to elevate this issue in the United States.
    I agree with you. We need to comply, as an international 
leader, and then negotiate an aggressive international 
agreement that hopefully China and India and other countries 
participate, because that is the only way we are going to 
really get ahead of this issue. I just am very proud of your 
leadership in this area.
    Thank you for being before our Committee.
    Mr. Gore.  Thanks so much, Senator. I appreciate it.
    Senator. Boxer.  Well, Mr. Vice President, you have given 
and given of yourself and your time, your family's time.
    I see Senator Carper is here. Senator Carper, we have one 
minute for you if you want to say something, unless you want to 
close the hearing. Did you vote already?
    Senator. Carper.  I have not.
    Senator. Boxer.  You better just do it in a minute, then, 
and I will go back to closing here.
    Senator. Carper.  Mr. Vice President, it is great to see 
you, and my old friend Roy there over your right shoulder. 
Thank you for joining us today and for your extraordinary 
leadership on this point.
    Mr. Gore.  Thank you, Senator.
    Senator. Carper.  One of the issues that if I could just 
ask you maybe to consider responding if you would on the record 
on this. I worked for about five years on legislation with some 
of my colleagues to try to figure out if we can at least get 
started on reducing not just CO<INF>2</INF> emissions, but 
sulphur dioxide, nitrous oxide, and mercury emissions from 
utility plants, to get started with a cap and trade system, 
using market forces.
    The hangup has been for a number of people the way we 
allocate the trading system that we set up. Would it be on 
CO<INF>2</INF>? Would it be input-based historical? Or would it 
be output based? The idea we favored in our legislation was an 
output-based approach because ultimately we want to create the 
most electricity that we can with the least amount of 
pollution.
    I would just welcome you to think about this a little bit, 
and maybe getting back to us on the record with your thoughts 
on input versus output. Because ultimately, we are going to 
have to make that decision. I think most of our colleagues 
haven't focused on it, haven't thought about it. I think your 
input would be much appreciated and valued.
    Mr. Gore.  Well, I appreciate it, Senator. I do believe 
that a so-called four pollutant approach is obviously the most 
efficient, where you get all four of them at the same time. I 
actually favor an auction system. I said earlier to Senator 
Alexander that if that meant it was impossible to pass the 
whole thing, then we ought to get it one way or another, but I 
think that would be the best way to do it.
    The sulpher dioxide cap and trade system was enormously 
efficient, a fantastic success. Take that approach, cap, trade, 
freeze, go down, take the limits on down, auction the permits. 
That is what I would do.
    Senator. Carper.  All right. Thank you very much.
    Senator. Boxer.  Senator Carper, I just wanted to say to 
Vice President Gore what an important member of this Committee 
you are.
    He has so many obligations today, but he does head the 
Subcommittee on Clean Air, Mr. Vice President, and has just 
really been a leader on this.
    Mr. Gore.  For a long time, and I am aware.
    Senator. Boxer.  We just so appreciate it.
    Okay, so we have five minutes to vote. So I am going to 
speak for about a minute to tell you how much this meant to all 
of us, I think even to the other side of the aisle. Senator 
Inhofe was waiting for this chance to chat with you. I am a 
believer in that kind of debate going on. I think it is 
absolutely key.
    Mr. Gore.  You have to do it.
    Senator. Boxer.  And so when I decided to ask you to come, 
I knew that yes, you would face some tough and hostile, if I 
might say, questions. Let me just say, as just a one woman 
reviewer, you did good, Mr. Vice President. I agree with what 
Senator Cardin said, that you really are in so many ways a role 
model for us all, not just as elected leaders, but really as 
citizens of this country.
    Mr. Gore.  You don't give out any kind of statue or 
anything, do you?
    [Laughter.]
    Senator. Boxer.  I am going to give you something. I am 
giving you something that is a little bit less than that in a 
minute. It is a lot less than that. But before I do, I just 
want to say something that really meant a lot to me, and I know 
to other members of the Committee, hopefully on both sides. I 
think on both sides.
    When I took the gavel and I said before elections have 
consequences, so right now I have the gavel, by a hair, okay, 
by a hair. And as long as I have it, I really said I had two 
goals at the start of this term, and that was to make the 
environmental issue a bipartisan issue again, because you and I 
are of the same time in politics.
    When I started off as a County Supervisor, it was a 
nonpartisan race that I had. The fight with the Republican and 
I was who was the best environmentalist. And the people 
benefitted from it, and have benefitted every since over in 
Marin County where we are really in the lead on so much of 
this.
    And then the second thing I wanted to do was focus on 
global warming, because we had so much time we had to make up 
for. And this is our fifth hearing. We have many more. We have 
the fundamentalist community coming before us. We are going to 
have small business leaders. We really have a tremendous range 
of folks that are going to come before us on this, and we will 
get a bill out of here.
    I think there are two approaches: the long-term approach 
that we hope will happen tomorrow as soon as we get the votes 
we will have that economy-wide bill. You know, the minute we 
have it, we will do it. And then taking action now, as we look 
toward that moment in time, which could be a week from now or a 
month or two months, or six. We can do things on buildings, on 
utilities, on lots of other places.
    So let me just tell you, I am going to give you a little 
gift. It is not a statue. It is not beautiful. But to me, it is 
important, and none of my friends have seen it, but the very 
first hearing we had on the Committee was an open microphone. I 
think you were listening to this. We had all Senators from the 
entire Senate come up and we had an open mic. And they 
presented their points of view.
    We had one-third of the Senate come to us, one-third. You 
know how hard that is? We actually did it. And most of them 
were very much in favor of taking action and some of them were 
not. Well, we have recorded that and we have put them in this 
little book. So because of your leadership and because you have 
certainly inspired me as the Chairman of this Committee to move 
on this, I wanted to present you with the first bound copy. I 
have signed it over to you. I hope you will come here. I hope 
my colleagues will join me here.
    It says, ``Dear Al, with deep respect and admiration. 
Barbara Boxer, '07.'' And that is for you. And we thank you 
very much.
    Mr. Gore.  Thank you so much. I really appreciate it.
    Senator. Boxer.  Thank you, Mrs. Gore, and thank you to the 
whole Gore staff that came here today.
    The Committee stands adjourned.
    [Whereupon, at 5:15 p.m. the committee was adjourned.]

          Statement of Hon. Max Baucus, U.S. Senator from the 
                            State of Montana

    Psalm 19 exclaims ``The heavens declare the glory of God; 
the skies proclaim the work of His hands.''
    Anyone who has visited Montana would agree. The beauty of 
the untamed Yellowstone River. The Abundance of wildlife on the 
prairie. The majesty of Glacier National Park. In the wide open 
spaces and the majestic Big Sky, we Montanans see the work of 
God's hands.
    With this great gift comes an important responsibility. We 
are called to be stewards of creation. And never has creation 
faced so great a challenge as that posed by climate change.
    I would like to thank the Chairman for calling this hearing 
and inviting Vice President Gore to testify. Vice President 
Gore joined me on a hike at Grinnell Glacier a few years back. 
Grinnell--located in Glacier National Park--is ironically one 
of the many glaciers that climate change is threatening. We had 
a good time. Although Grinnell is a better hike without the 
crowd the Vice President attracts!
    No one has done more to call attention to this issue than 
our former colleague from Tennessee. I agree with Vice 
President Gore that climate change is real, it is man made, and 
the need for action is urgent.
    Montana is an agricultural state, a tourist state, and a 
coal state. While action is not without cost, the costs of 
inaction are far greater. What is the cost of a trout stream 
whose waters are too warm to fish? What is the price of more 
devastating forest fires, longer droughts, and no glaciers in 
Glacier National Park? How do you apply a cost benefit analysis 
to this moral responsibility?
    In February, the International Panel on Climate Change 
report stated that there is 90 percent certainty that most of 
the temperature increase since the middle of the 20th century 
is due to the increase in man-made greenhouse gases. While some 
will continue to debate the fringes of the issue, this finding 
cannot be ignored. The earth is warming, and there will be real 
consequences.
    Montanans know this too well. 2005 and 2006 were two of the 
hottest years on record. And hotter weather means bigger fires. 
We are coming off another horrible fire season. Over one 
million acres burned in wildland fires this past summer. In 
Montana, wildfires over 1,000 acres have increased six fold 
over the last 40 years.
    The potential costs to our wildlife and tourism sector are 
also great. Montanans are outdoors people. We hunt, we fish. We 
take our kids hiking and camping. It's part of our great 
outdoor heritage. But that heritage is at risk.
    Already warmer temperatures have lead to stream closures to 
protect stressed trout in the heat of summer. Some studies 
indicate that warming water temperatures could reduce trout 
habitat in Montana by 5 to 30 percent by 2090. Fishing defines 
us as Montanans, but it's also big business. The sport 
generates $235 million dollars in economic activity every year.
    Montana is also an agricultural state. Our farmers are 
suffering through the seventh year of drought. With less water 
for irrigation and lower yields, some of our farmers are barely 
hanging on.
    The good news is that our farmers are part of the solution. 
Through practices like no-till farming the good stewards of our 
land can also sequester carbon. I look forward to working with 
my colleagues to make sure climate legislation rewards farmers 
for their good practices.
    Finally, Montana is a coal State. Montana has 120 billion 
tons of coal, more than any other state in the union. This 
resource will have to be part of the solution to meeting our 
energy needs. However, we must develop it the right way.
    An economy wide cap and trade program is needed. Economy 
wide initiatives send the proper price signals to industry that 
the days of emitting carbon into our atmosphere are over.
    To accomplish our carbon emission goals we must make sure 
the allocation formulas and tax incentives are in place to 
accelerate carbon capture and sequestration.
    Our most important resources are our resolve and ingenuity. 
In Montana we have increased our wind generating capacity over 
70 fold in the last two years. The potential for this clean 
energy is huge. We can replicate this success with solar, 
biofuels, and other clean forms of energy. We must begin the 
process of developing the next generation of energy 
technologies here at home.
    During World War II we rose to the challenge of Hitler and 
defeated fascism. Under President Kennedy we rose to the 
challenge of Sputnik and put a man on the moon. Now it is our 
turn to rise to the challenge of climate change.

[GRAPHIC] [TIFF OMITTED] 55923.001

[GRAPHIC] [TIFF OMITTED] 55923.003

[GRAPHIC] [TIFF OMITTED] 55923.012

[GRAPHIC] [TIFF OMITTED] 55923.013

[GRAPHIC] [TIFF OMITTED] 55923.014

[GRAPHIC] [TIFF OMITTED] 55923.002

[GRAPHIC] [TIFF OMITTED] 55923.004

[GRAPHIC] [TIFF OMITTED] 55923.005

[GRAPHIC] [TIFF OMITTED] 55923.006

[GRAPHIC] [TIFF OMITTED] 55923.007

[GRAPHIC] [TIFF OMITTED] 55923.008

[GRAPHIC] [TIFF OMITTED] 55923.009

[GRAPHIC] [TIFF OMITTED] 55923.010

[GRAPHIC] [TIFF OMITTED] 55923.011

      

                                    

</pre></body></html>
